May 1, 2013



The following white paper contains an examination of the price sensitivity of postal
customers of three market dominant Postal Service products: First-Class Mail,
Standard Mail, and Periodicals.

The marketplace for traditional Postal Service products is increasingly competitive. In
addition to the long term trend toward electronic media, Postal Service products face
intense pressures brought about by the Great Recession. This paper explores an open
question raised by these disruptive trends: Are Postal Service customers becoming
more price sensitive? Though intuition may suggest that growing competition would
have this effect, the answer to this question is best found by letting the data do the
talking.

Toward that end, this paper presents the results of an open-minded, rigorous empirical
review of the demand for these postal products. Price sensitivity was analyzed with a
battery of tests using both the Postal Service demand models and alternative models.
The analysis was subjected to extensive peer review.

We were surprised to find that, no matter how we stressed the models or which models
we used, the data told the same story: Demand for postal products is not becoming
more price sensitive. In fact, a case can be made that these products are becoming less
price sensitive. This may be because customers most likely to leave the Postal Service
for the Internet have already done so, leaving the remaining customers more loyal in the
face of price increases.

In the course of our analysis, we did uncover some technical problems with the Postal
Service’s demand models. We recommend that the Postal Service make adjustments to
its models as appropriate. These technical problems had no significant effect on our
conclusions.



David C. Williams
Inspector General
                           WHITE PAPER



Analysis of Postal Price
Elasticities

May 1, 2013




                      Report Number: RARC-WP-13-008
                                                                         EXECUTIVE SUMMARY


             Analysis of Postal Price Elasticities
This paper analyzes the effect of postal                                         Highlights
price increases on revenue and volume.
Opponents of price increases assert that                     The OIG asked Christensen Associates
higher prices will drive customers away,                     to review the Postal Service’s demand
reducing revenue and exacerbating the                        models for First-Class Mail, Standard
loss of volume to electronic alternatives.                   Mail, and Periodicals.
Proponents of price increases cite the long
history of price increases that led to                       Christensen Associates found that
                                                             these postal products are price
revenue increases prior to the
                                                             inelastic: raising their prices will
implementation of a price cap in 2007. The                   increase postal revenues. Lowering
resolution of this dispute lies in the data.                 them will decrease revenues.
Analysis of the demand for postal products
shows that price increases will increase                     There was no evidence that either the
revenues. Recent events such as the Great                    long-term trend toward using electronic
Recession and the growth of use of the                       alternatives to mail or the Great
Internet do not change this conclusion.                      Recession has caused postal customers
                                                             to become more price sensitive.
Economists use the concept of price
elasticity to analyze the effect of price                    There were some technical problems
changes on revenue changes. When price                       with the Postal Service models.
                                                             Correcting these problems did not
increases lead to decreased revenue the
                                                             change the findings; the demand for
demand for the product is said to be price                   these postal products is still price
elastic. When price increases cause                          inelastic.
revenues to increase demand is inelastic.

Price elasticity is estimated using econometric models of product demand. The Postal
Service has produced its econometric demand models for more than 30 years with
periodic refinements to reflect changes in the economy and postal industry. Some argue
that the models provide evidence of an upward trend in price elasticity and that the price
elasticity of postal customers is “in flux” due to the increase of electronic alternatives
and the disruptive effects of the Great Recession. 1 In order to test these propositions,
this paper examines the demand for three classes of market dominant postal services:

1
 United States Postal Service, Plan to Profitability: 5 Year Business Plan, February 16, 2012,
http://about.usps.com/news/national-releases/2012/pr12_0217profitability.pdf, p. 4, and Five Year Business Plan,
April 16, 2013, http://about.usps.com/strategic-planning/fiveyearplan-04162013-final.pdf, p. 6.

U.S. Postal Service Office of Inspector General                                                           May 1, 2013
                                                         i
RARC-WP-13-008                                                          Analysis of Postal Price Elasticities



First-Class Mail®, Standard Mail®, and Periodicals. These classes account for the
majority of mail volume, mail revenue, and contribution to institutional costs.

The Office of Inspector General retained Lauritis R. Christensen Associates, an
independent economic consulting firm, to conduct the analysis. Christensen Associates
is well-known for its expertise in econometrics, productivity measurement, and
regulatory industry policy analysis. The analysis is included as a technical appendix.

Christensen Associates reviewed the demand models that the Postal Service filed with
the Postal Regulatory Commission in 2011 and 2012. The Postal Service uses these
models in financial forecasting, pricing, marketing, and planning processes. Christensen
Associates also reviewed other econometric formulations of the demand for postal
services. This econometric evaluation of Postal Service price elasticities uses both the
Postal Service’s models as well as an alternative set of models.

Results of Analysis
          The demand for the postal products studied is price inelastic. Price increases will
           increase revenues. Decreases in postal prices, either through price cuts or
           widespread use of discounting, will reduce Postal Service revenues.

          A case can be made that the demand for postal products (with the possible
           exception of Standard Enhanced Carrier Route (ECR) mail) has actually become
           more price inelastic over time. Moreover, even the most price sensitive product
           examined in this report, Standard Mail ECR, is price inelastic.

          The Great Recession and the availability of electronic alternatives clearly
           decreased the demand for the postal services examined in this report, as
           evidenced by a drastic decline in volume over the past 7 years. However, neither
           the recession nor any other event since 2008 caused postal price elasticities to
           increase in any significant way. Postal price elasticities are not in flux. The
           demand for postal products remains price inelastic.

          Price elasticities generally are higher when competitive alternatives are more
           readily available. Since electronic alternatives to mail have become increasingly
           widespread in recent years, one might think that price elasticity estimates that
           use data from an earlier, less competitive era would understate the price
           elasticities of mailers today. Christensen Associates found, however, that
           including historical data (from the 1990s, for example) in the econometric
           demand analysis does not materially affect the estimates of price elasticities.

          Christensen Associates found technical shortcomings in the Postal Service
           models. Because of this, Christensen Associates ran its analysis with both the
           Postal Service’s models and its preferred alternatives, error correction models.
           Correcting these technical problems resulted in only small changes to the price
           elasticity estimates and had no bearing on the major results described above.



U.S. Postal Service Office of Inspector General                                                May 1, 2013
                                                  ii
RARC-WP-13-008                                                                                     Analysis of Postal Price Elasticities




                                                  Table of Contents

Introduction ..................................................................................................................... 1


What is a Demand Model? .............................................................................................. 2


Estimates of Price Elasticities over Time......................................................................... 4


Econometric Analysis and Results .................................................................................. 5


Business Implications ...................................................................................................... 7




                                                      Appendix

Is Demand for Market Dominant Products of the U.S. Postal Service
Becoming More Own Price Elastic? ................................................................................ 8




U.S. Postal Service Office of Inspector General                                                                           May 1, 2013
                                                                 iii
RARC-WP-13-008                                                                           Analysis of Postal Price Elasticities




             Analysis of Postal Price Elasticities

Introduction
The adoption of Internet-based communications and the most severe economic
downturn in eight decades have combined to reduce dramatically the demand for
traditional postal services. Mail volume in the United States in 2012 was 160 billion
pieces, 25 percent less than its peak of 213 billion pieces in 2006. The 2012 volume
level is roughly the same as in the late 1980s despite a population increase of 80 million
and an increase in delivery points of 37 million. 2 To make matters even worse, the vast
majority of the decline in volume came from the U.S. Postal Service’s most profitable
products: First-Class Mail and Standard Mail. 3

There have been many disruptive events for postal customers during the last 7 years.
The Internet has caused a revolution in communications away from hard copy to digital.
A severe economic contraction has crippled economic growth and reduced consumer
demand. Postal prices have increased. Economists use econometric methods to
provide a rigorous analytical framework to separate out these kinds of effects. These
econometric tools are designed to provide an objective basis for understanding what
happened in the past and what is likely to happen to mail volume when these factors
change in the future. This paper relies on these accepted analytical tools.

Economists measure the degree to which consumers respond to price changes and
alter their demand for products or services with the concept of elasticity. The measure
of price elasticity is critical to making business and public policy decisions. A product is
considered to be price inelastic if a 1-percent increase in price brings about a less than
1-percent decrease in volume. If a product is price inelastic, a price increase will
increase gross revenue. If we can confidently conclude that the demand for a product is
inelastic with respect to price, then price increases can be a powerful financial tool.
When a product is price inelastic, cutting prices or discounting will be counterproductive,
resulting in decreased revenue and profitability.

One way to offset the adverse financial effects of a volume decline is to raise prices.
Prior to the passage of the Postal Accountability and Enhancement Act (PAEA) in 2006,
the Postal Service regularly raised prices to improve its finances. Price increases were
pursued because mailer demand was regarded as price inelastic. Since the passage of
the PAEA, price increases have been capped at the rate of inflation except for exigent
circumstances. The Postal Service has been reluctant to pursue an exigent price
increase. This reluctance is based at least partially on the assumption that the Internet


2
  For population data, see U.S. Census data as posted at http://www.multpl.com/united-states-population/table. For
delivery points, see U.S. Postal Service figures as posed at http://about.usps.com/who-we-are/postal-history/delivery-
points-since-1905.pdf.
3
  Domestic First-Class Mail volume peaked at nearly 104 billion pieces in 2001. Today, there are only 69 billion
pieces. Standard Mail volume peaked at nearly 104 billion pieces in 2007 and now stands at about 80 billion pieces.

U.S. Postal Service Office of Inspector General                                                                 May 1, 2013
                                                          1
RARC-WP-13-008                                                                                Analysis of Postal Price Elasticities



has increased competition, thereby making mailers more sensitive to price increases.
Ultimately, the question of mailer response to price increases is an empirical one.

The Postal Service maintains a set of econometric demand models that estimate,
among other things, mailers’ price elasticity of demand. This paper examines these
models for three market dominant classes of mail: First-Class Mail, Standard Mail, and
Periodicals. 4 Our examination focuses on several interrelated questions. Has the
demand for these postal services experienced a structural change? In the presence of
electronic alternatives and profound changes in the economy, are postal customers
more price sensitive now than was previously thought? Are the Postal Service’s
econometric demand models properly estimated and how, if at all, can they be
improved? The U.S. Postal Service Office of Inspector General contracted with
Lauritis R. Christensen Associates (Christensen Associates), an independent consulting
firm with extensive postal and econometric expertise, to examine these questions. Their
technical report is attached as an appendix.

What is a Demand Model?
Consumers of goods and services purchase products in such a way as to maximize
their satisfaction (called utility by economists) subject to a budget constraint (usually
income). Businesses purchase resources to maximize profits. For most goods, this
means that as prices increase, the quantity demanded decreases. This relationship
gives rise to the familiar downward-sloping demand curve. There are many other factors
that are important in determining the demand for goods and services. These factors
include prices of substitutes and complements, consumer income, population-related
factors, and changes in consumer taste and technology. These factors generally cause
a demand curve to shift up or down or change shape depending on the direction of their
influence on consumers. 5

The actual behavioral processes that underlie the demand for a good or service are
unobservable, but economists can use econometric tools to model and estimate them.
These tools quantify the causal influence of each demand factor on the level of product
demand. In general, when one estimates the demand for postal services, one applies
some basic economic concepts of demand to specify mathematical models for
estimation purposes. For postal services, these econometric models include the
following demand factors:

          The real price of the postal product. This is the price of the postal product itself
           adjusted for inflation. 6 It is also called the own price.




4
  According to the Postal Service’s 2012 Cost and Revenue Analysis Report, the products analyzed in this study
constitute 97 percent of mail volume, 74 percent of revenue, and 81 percent of contribution to institutional costs.
5
  See Figure 3 in the Christensen Associates report in the appendix for an illustration.
6
  Prices are adjusted for inflation to account for the erosion of the value of the dollar over time. In this way, prior years
can be compared to recent years on an even footing.

U.S. Postal Service Office of Inspector General                                                                      May 1, 2013
                                                             2
RARC-WP-13-008                                                                            Analysis of Postal Price Elasticities



          The real price of substitutes for the postal product. A substitute can be another
           postal product or a product offered by a competitor. Prices of substitutes are
           referred to as cross prices.

          The real price of complements. A complement would be a good that is used
           hand-in-glove with postal products. Paper and printing are examples of
           complements of postal products. The prices of complements are also referred to
           as cross prices.

          The real level of economic activity. The greater the level of economic activity, the
           greater is the demand for postal products. Real retail sales and employment are
           examples.

          Population. Higher population means more consumers and more demand for
           postal products.

          Changes in consumer tastes and technology. Examples include the availability
           of electronic alternatives to mail, such as electronic bill payment.

          Seasonal effects, such as the pre-Christmas increase in catalogue mailing.

          Other factors and events such as elections, the decennial census, changes to the
           definition of a product, the anthrax attacks, and the like.

The specific drivers of the demand for each postal product, of course, differ.
Nevertheless, demand for all postal products follows these same basic economic
principles.

Most postal demand factors have a known direction of influence on demand, but the
effects of technology and taste can be either positive or negative, often in subtle and
surprising ways. In the 1970s, the expansion of the use of computers was famously
predicted to bring about the paperless office. 7 Using similar reasoning, a 1977
commission on the future of the Postal Service predicted the decline of mail volume
growth in the 1980s. 8 Rather than become paperless, we experienced a boom in the
use of paper in the office (and beyond). People were reluctant to give up paper, a
medium that had been ubiquitous for hundreds of years. Laser printing made printing
easy and convenient. Inexpensive computer technology made it easier to develop
mailing lists that facilitated direct mail advertising campaigns. Instead of experiencing a




7
  For the original article, see “The Office of the Future,” Business Week, June 30, 1975,
http://www.businessweek.com/stories/1975-06-30/the-office-of-the-futurebusinessweek-business-news-stock-market-
and-financial-advice. For an interesting discussion of why it turned out to be such a bad prediction, see Gordon Kelly,
“The Paperless Office: Why It Never Happened,” Itproportal.com, March 9, 2012,
http://www.itproportal.com/2012/03/09/paperless-office-why-it-never-happened.
8
  Commission on Postal Service, Report on the Commission on Postal Service (Washington, DC: Government
Printing Office, April 1977), p. 30.

U.S. Postal Service Office of Inspector General                                                                  May 1, 2013
                                                          3
RARC-WP-13-008                                                                            Analysis of Postal Price Elasticities



decline in mail volume in the 1980s, the Postal Service saw a sharp increase aided by
the very computer technology that was supposed to cause the decline. 9

Estimates of Price Elasticities over Time
The Postal Service has a long history of using econometric tools to estimate the
demand for its products. Estimates of price elasticity for market dominant products are
publically available. Table 1 in the Christensen Associates appendix lists these
estimates over the last two-and-a-half decades.

An elasticity estimate less than 1.0 indicates that demand for a product is price inelastic.
Of the 133 values listed, only nine (less than seven percent) are above 1.0, indicating
elastic demand. Moreover, all of the price elasticities from 2011 or 2012, the most
recent years listed, are less than 1.0. Another interesting fact is that year-to-year
fluctuations in the Postal Service’s price elasticities are not a recent phenomenon. The
estimated price elasticity for Within County Periodicals, for example, follows a saw tooth
pattern, declining in one year and increasing the next. Finally, there does not seem to
be any discernible trend toward higher elasticity values in recent years.

Somewhat ironically, the Postal Service’s econometrician takes issue with using this
table to find evidence of trends in price elasticities. Each price elasticity listed comes
from a demand model that estimates a single price elasticity applicable over the entire
period included in the analysis, often more than 20 years in length. In the view of the
Postal Service’s econometrician, the best estimates of today’s price elasticities are the
most recent ones, because they include all currently available information. 10

Additionally, changes in the elasticity from one set of models to the next generally
reflect changes to the specification of the model, not changes in underlying mailer
behavior. One such model change could be the use of a different economic activity
measure, using retail sales instead of disposable income, for example. Using a different
economic variable might be done because it allows the demand model to better fit
historical data. Another reason for changing a demand driver is that the old driver may
no longer be useful for forecasting purposes. Broadband adoption, for example, is an
obvious choice to represent the expansion of the Internet, but broadband adoption
stalled for several years at about two-thirds of American households. Basing a mail
volume forecast on this data series would be nonsensical since we expect the Internet
to have an increasing effect on mail demand for many years to come. Using different
demand drivers in the models can change the estimates of all the elasticities, including
its own price elasticity, even when the underlying mailer behavior has not changed.

With a few exceptions, Table 1 in the appendix shows that the Postal Service has
consistently found that the demand for market dominant products is price inelastic,

9
  Of course, to some extent, these pessimistic prognosticators were right; they just missed on the timing of these
events by 20 years or so.
10
   Thomas. E, Thress, “Response of Postal Service Witness Thress to Interrogatories of ABA-NAPM” in Postal
Regulatory Commission, Transcript, Volume 6, Docket No. R2006-1, August 9, 2006,
http://www.prc.gov/Docs/52/52241/Vol-6-R2006-1.pdf, pp. 1201-1203.

U.S. Postal Service Office of Inspector General                                                                  May 1, 2013
                                                          4
RARC-WP-13-008                                                                           Analysis of Postal Price Elasticities



sometimes extremely so. 11 Traditional economic theory states that one determinant of
price elasticity is intensity of competition: The more competition, the higher the price
elasticity. Low postal price elasticities in recent years seem at odds with the emerging
intense competition from the Internet and other electronic alternatives to mail. There is
an alternative school of thought, however, that supports low or even declining price
elasticities. Suppose the market consists of two classes of customers: the Traditionals
and the Digitals. The Traditionals stick with an old technology through thick and thin
because it meets their business and personal needs. The Digitals look to new
alternatives and once they switch to that alternative they do not switch back. If
Traditionals are less price elastic than Digitals, the movement of the Digitals to the new
alternatives would cause the price elasticity for the users of the old technology to
decline over time. 12 In the case of the Postal Service, there are some Traditionals who
prefer to use hard-copy mail as opposed to electronic alternatives, and Digitals who
have already switched to e-mail, electronic bill payment, and other forms of digital
communication. The postal customer base may now be made of Traditionals who are
unlikely to abandon their mail usage even in the face of a price increase.

The Great Recession could also affect price elasticities. It could be the case that the
disruptive effects of the Great Recession have fundamentally changed the demand for
postal products. For example, recession-induced pressure to reduce costs may intensify
mailers’ desire to move customers to electronic bill payment, and electronic bill and
statement presentment.

A formal analysis of these phenomena would answer the technical question: Has a
structural change in demand caused price elasticities to increase significantly in recent
times? This sort of change would reveal itself in the data and can be tested easily. The
Christensen Associates analysis performs these tests.

Econometric Analysis and Results
The econometric analysis followed two tracks. The first track used the Postal Service’s
most recent demand models and subjected them to four separate analytical reviews.
Because technical problems were discovered in the Postal Service’s models, an
alternative set of models was developed. These alternative models were subjected to
the same four analytical reviews.



11
   The closer to zero, the more price inelastic a product is.
12
   For a discussion of this phenomenon in the pharmaceutical industry, see U.S. Postal Service, Rebuttal Testimony
of Thomas E. Thress, Transcript Volume 38, Docket R2006-1, pp.13023-24. Thress’s discussion, in turn, cites F.M.
Scherer, Industrial Structure, Strategy and Public Policy (New York: Harper Collins, College Publishers, 1996), p. 377
and Richard G. Frank and David S. Salkever, “Pricing, Patent Loss, and the Market for Pharmaceuticals,” Southern
Economic Journal, October 1992, pp. 165-79, http://www.people.vcu.edu/~lrazzolini/GR1993.pdf. A recent study that
applies a remarkably similar approach to postal markets is Frederique Feve, Jean-Pierre Florens, Frank Rodriquez,
Soterios Soteri, and Leticia Veruete-McKay, “Evaluating Demand for Letter Price Elasticities and Technology Impacts
in an Evolving Communications Market is Higher than Econometricians Think?” 2012.
http://idei.fr/doc/conf/pos/papers_2012/soteri.pdf (used with permission of the authors). This study does find an
upward trend in price elasticity, but that the price elasticity remains “near the magnitude” of Lpeople, who we are
calling Traditionals.

U.S. Postal Service Office of Inspector General                                                                 May 1, 2013
                                                          5
RARC-WP-13-008                                                                               Analysis of Postal Price Elasticities



The first review estimated the demand models using a shortened version of the dataset,
starting with the oldest data. The models were re-estimated adding the next most recent
data point. For example, the first iteration would use the first 60 data points. The second
would use 61 data points, the first 60 plus the next most recent. This exercise was
repeated until all data points were included. 13 The price elasticity estimate from each
iteration was graphed over time. The resulting graphs shows whether the price elasticity
estimates have trended up or down over time.

The second review essentially repeated the first analysis in reverse, starting with the
most recent data, adding older data points one at a time. 14 In this case, for example, the
most recent 60 observations are used for the first estimation. The next estimation uses
the most recent 61 observations, and so on. As before, the price elasticity from each
iteration was graphed indicating whether the elasticities have exhibited a trend over
time.

The third review sequentially estimated the demand equation over a subset of the
available data, holding the size of the data subset constant. The first estimate was
conducted with the oldest data. The equations were re-estimated by moving the dataset
forward in time, one quarter at a time until only the most recent data were used. 15 In this
case, the first estimation would use the oldest 60 data points. The next estimation drops
the oldest observation and adds the next most recent one, such that 60 data points are
used in each iteration. The estimated price elasticity from each iteration was graphed
over time. This analysis also depicts evidence of trends over time.

The fourth review involved a series of so-called dummy variable tests. These tests
include a binary or dummy variable that allows the price elasticity to shift either up or
down with recent events, like the Great Recession. If the estimated price elasticity
increased or decreased, the dummy variable analysis measured the magnitude of the
change and its statistical significance.

 Both research tracks reached the following conclusions:

          The demand for First-Class Mail, Standard Mail, and Periodicals is price inelastic,
           and Christensen Associates’ estimates are generally in the same range
           estimated by the Postal Service’s 2012 models. A case can be made for the
           proposition that Standard Enhanced Carrier Route (ECR) Mail has a price
           elasticity of one. 16

          With the possible exception of Standard ECR, Christensen Associates found no
           evidence that the demand for the market dominant products in this study has
           become more price elastic over time. In fact, one could reasonably conclude that
           some products have become less price elastic in recent years.

13
   In the Christensen Associates report, this is called the recursive coefficient analysis.
14
   The Christensen Associates report refers to this as the reverse recursive coefficient analysis.
15
   This is called the rolling coefficient analysis in the Christensen Associates report.
16
   A price elasticity equal to one, also called a unitary price elasticity, means that raising ECR’s price would leave
gross revenue unchanged.

U.S. Postal Service Office of Inspector General                                                                     May 1, 2013
                                                            6
RARC-WP-13-008                                                         Analysis of Postal Price Elasticities



          The Great Recession (or other recent events) does not seem to have had any
           discernible effect on price elasticities.

          Use of historic data from a time with fewer electronic alternatives in the Postal
           Service’s demand analyses does not lead to underestimates of price elasticities.

As mentioned above, Christensen Associates found evidence of a technical problem
often evident in time series analyses, in the Postal Service’s models. Christensen
Associates used an alternative set of econometric models to remedy this problem. We
recommend that the Postal Service review its regression diagnostics and consider using
alternative modeling methods where appropriate. The use of alternative models did not
change any of the above findings, but it did produce more defensible elasticity estimates
and better measures of the variance of the estimates.

Business Implications
One of the primary purposes of econometric demand models is to determine what
factors cause (or do not cause) changes in mail volume. These models show that recent
volume declines are the result of the effects of the Great Recession and the long-term
trend away from printed communications. Price increases are not the cause of the
Postal Service’s volume losses. Mailers are not more sensitive to price increases than
in the past.

Based on the econometric evidence, raising the price level for First-Class Mail,
Standard Mail, and Periodicals above the rate of inflation will increase the gross
revenues of the Postal Service. However, it is important to note that each price elasticity
estimate applies to an aggregate classification of mail. It may be the case that market
segments within an aggregate classification examined in this report are price elastic.
However, this implies that the remaining market segments within that classification are
more inelastic than the overall econometric estimates.

Widespread discounting among these market dominant products that lowers price levels
will reduce revenue. Such indiscriminant use of discounting, therefore, is a
counterproductive pricing strategy. Mailers are unlikely to increase volume sufficiently to
offset the reductions in price.




U.S. Postal Service Office of Inspector General                                               May 1, 2013
                                                  7
RARC-WP-13-008                                               Analysis of Postal Price Elasticities




                                                  Appendix




U.S. Postal Service Office of Inspector General                                     May 1, 2013
                                                     8
Is Demand for Market
Dominant Products of the U.S.
Postal Service Becoming More
Own Price Elastic?


A. Thomas Bozzo
Kristen L. Capogrossi
B. Kelly Eakin
Mithuna Srinivasan



May 1, 2013




Laurits R. Christensen Associates, Inc.
800 University Bay Drive, Suite 400
Madison, WI 53705-2299

Voice 608.231.2266 Fax 608.231.2108
                                                                       Table of Contents




I. INTRODUCTION AND EXECUTIVE SUMMARY ...................................................................................................... 4
    I.B. SCOPE OF ANALYSIS ..................................................................................................................................................6
II. PRICE ELASTICITY AND THE STRUCTURE OF POSTAL DEMANDS ......................................................................... 7
    II.A. PRICE ELASTICITY ....................................................................................................................................................7
    II.B. HOUSEHOLD AND BUSINESS DEMAND FOR POSTAL SERVICES...........................................................................................9
    II.C. DETERMINANTS OF THE PRICE ELASTICITY OF DEMAND .................................................................................................10
    II.D. THE DISTINCTION BETWEEN A CHANGE IN DEMAND AND A CHANGE IN THE ELASTICITY OF DEMAND .....................................10
III. ECONOMETRIC ESTIMATION METHODS FOR POSTAL SERVICE DEMANDS ...................................................... 12
    III.A. POSTAL SERVICE BASELINE MODELS ........................................................................................................................12
    III.B. NONSTATIONARITY AND ERROR CORRECTION MODELS ................................................................................................15
    III.C. MODIFIED USPS BASELINE DEMAND MODELS ..........................................................................................................19
    III.D. ERROR CORRECTION MODELS ................................................................................................................................22
IV. TESTING STABILITY OF OWN PRICE ELASTICIITES ............................................................................................ 23
    IV.A. ROLLING AND RECURSIVE COEFFICIENT ANALYSIS .......................................................................................................23
    IV.B. RESULTS OF ROLLING AND RECURSIVE PARAMETER ANALYSIS .......................................................................................25
    IV.C. DUMMY VARIABLE INTERACTION MODELS ................................................................................................................39
V. CONCLUSIONS ................................................................................................................................................. 42
APPENDIX A: PRICE ELASTICITY AND THE ECONOMIC STRUCTURE OF POSTAL DEMANDS ................................... 43
    A.1. PRICING AND THE IMPORTANCE OF THE ELASTICITY OF DEMAND ....................................................................................43
    A.2. DETERMINANTS OF THE PRICE ELASTICITIES OF HOUSEHOLD DEMAND.............................................................................44
    A.3. DETERMINANTS OF THE PRICE ELASTICITIES OF BUSINESS DEMAND.................................................................................46
    A.4. ALL OTHER THINGS AREN’T THE SAME: HOW THE DEMAND AND THE ELASTICITY OF DEMAND FOR POSTAL SERVICES MIGHT—OR
    MIGHT NOT—BE CHANGING .........................................................................................................................................49
    A.5. CONCLUSION .......................................................................................................................................................50
APPENDIX B: SUMMARY OF CRRI CONFERENCE PAPERS REVIEWED .................................................................... 51
    B.1. TIME SERIES MODELS ............................................................................................................................................51
    DISCRETE CHOICE MODEL OF CIGNO, PEARSALL, AND PATEL ................................................................................................52




                                                                                                                                                                             1
                                                         List of Tables

Table 1. Own Price Elasticity History ............................................................................................ 14
Table 2. Results of Stationarity and Cointegtration Tests for Postal Service Demand Variables. 18
Table 3. Comparison of Long-Run Own Price Elasticities from USPS Demand Models and LRCA
Modified Baseline Models, Full Sample Periods Ending Q4 FY2011 and Q4 FY2012 ................... 21
Table 4. Long-run Own Price Elasticities from Error Correction Models, Full Sample Periods
Ending Q4 FY2011 and Q4 FY2012................................................................................................ 23
Table 5. Results from Dummy Variable Interaction Models ........................................................ 40




                                                                                                                                   2
                                                               List of Figures

Figure 1: Relative Elasticity ............................................................................................................. 8
Figure 2: Perfectly Elastic Demand and Perfectly Inelastic Demand .............................................. 9
Figure 3: Demand Decreases and Impacts on Elasticity of Demand ............................................ 11
Figure 4a. Rolling and Recursive Analysis for Standard Regular, Modified Baseline ................... 26
Figure 4b. Rolling and Recursive Analysis for Standard Mail Regular, ECM Version 1................. 26
Figure 5a. Rolling and Recursive Analysis for Standard ECR, Modified Baseline ......................... 27
Figure 5b. Rolling and Recursive Analysis for Standard ECR, ECM Version 1 ............................... 28
Figure 6a. Rolling and Recursive Analysis for Standard Nonprofit, Modified Baseline ................ 29
Figure 6b. Rolling and Recursive Analysis for Standard Nonprofit, ECM Version 1 ..................... 29
Figure 7a. Rolling and Recursive Analysis for Standard Nonprofit ECR, Modified Baseline ......... 30
Figure 7b. Rolling and Recursive Analysis for Standard Nonprofit ECR, ECM Version 1 .............. 31
Figure 8a. Rolling and Recursive Analysis for Periodicals, Modified Baseline .............................. 32
Figure 8b. Rolling and Recursive Analysis for Periodicals, ECM Version 1 ................................... 32
Figure 9a. Rolling and Recursive Analysis for Single Piece First-Class Mail, Modified Baseline ... 33
Figure 9b. Rolling and Recursive Analysis for Single Piece First-Class Mail, ECM Version 1 ........ 34
Figure 10a. Rolling and Recursive Analysis for Workshared First-Class, Modified Baseline ........ 35
Figure 10b. Rolling and Recursive Analysis for Workshared First-Class, ECM Version 1 ............. 35
Figure 11a. Rolling and Recursive Analysis for Single Piece First-Class Cards, Modified
Baseline ......................................................................................................................................... 36
Figure 11b. Rolling and Recursive Analysis for Single Piece First-Class Cards, ECM Version 1 .... 37
Figure 12a. Rolling and Recursive Analysis for Workshared First-Class Cards, Modified
Baseline ......................................................................................................................................... 38
Figure 12b. Rolling and Recursive Analysis for Workshared First-Class Cards, ECM Version 1 ... 38




                                                                                                                                                   3
I. INTRODUCTION AND EXECUTIVE SUMMARY

The price elasticity of demand is a concept that measures customers’ response to price changes
for a product. From a seller’s point of view, the price elasticity of demand is important
information for determining pricing strategies. The own price elasticity of demand specifically
measures the degree of response of a product’s volume (demand) to changes in the product
price. Since demand curves are generally downward sloping in the product price, own price
elasticities are almost always assumed to be negative, so price increases reduce quantity
demanded, other things equal. For example, if a product’s own price demand elasticity is -0.2,
then a one percent increase in the (real) price of the product would result in a 0.2 percent
decline in volume. Own price elasticities less than unity in absolute value are termed “inelastic;”
if the volume response is larger in percentage terms than the price change, then the elasticity is
greater than 1 in absolute value and demand is “elastic.” 1

Among other considerations, raising the price of an own price inelastic product will increase a
firm’s revenues, net of expected volume losses. The Postal Service has estimated demand
models for many years, which have found inelastic demands for most market dominant postal
products. However, in the wake of large and persistent volume declines for key market
dominant products such as First-Class Mail letters and Standard Mail flats, the Postal Service
and other parties have claimed that postal demand may have become more own price elastic
over time, potentially due to factors such as increased competition from electronic substitutes
or increased price sensitivity of mailers seeking cost savings as a result of the Great Recession.
These claims bear on a number of important pricing issues, including the utility of exigent rate
increases, and the effects of rate rebalancing in which certain products within mail classes may
face systematic increases in real price to meet regulatory cost coverage requirements.

While the Postal Service’s demand models incorporate features to account Internet diversion
and cyclical economic effects, they do not directly provide for changes in own price elasticities
of demand. The history of own price elasticities from the demand models provides some
indication of the sensitivity of the results to the inclusion of data from more recent years. If
adding data to the end of a demand model sample caused a large increase in the measured
elasticity, it would be appropriate to conclude that demands were becoming more elastic over
time. However, it is possible that the long sample periods and other model assumptions could
attenuate changes in the elasticities, so the lack of longer-range trends in the elasticity histories
is not dispositive of the question of whether own price elasticities are increasing or otherwise
“in flux.”

Our analysis addresses a primary question of interest, “Can the Postal Service’s demand models
be used to test the proposition that the price elasticity of demand has changed as a result of
the Internet or other recent events?” We review the theory of demand, including consumer
demands for goods and services and firms’ demands for factors of production, to assess

1
 In the discussion below, we mean “larger” own price elasticities to refer to elasticities that are larger in absolute
value—that is, more own price elastic demands.


                                                                                                                         4
whether recent changes to postal and communications markets necessarily imply increasing
own price elasticities for the Postal Service’s market dominant products. Section II summarizes
our review of demand issues, which is presented in Appendix A. We also reviewed the Postal
Service’s econometric models of market dominant product demands, filed with the Postal
Regulatory Commission in January 2012, 2 and compared Postal Service methodology with that
of recent papers on postal demand estimation presented at recent conferences sponsored by
the Rutgers University Center for Research in Regulated Industries (CRRI). 3 Our econometric
analysis, which covers the First-Class Mail, Periodicals, and Standard Mail product groups from
the Postal Service’s demand analysis, is presented in Sections III and IV. A summary of our
review of the CRRI conference papers is provided in Appendix B.

Our main findings are:

    •   We find that the Postal Service’s demand models, as well as alternative models we
        developed, can be used to test whether postal price elasticities have changed as a result
        of recent events. Our primary finding is that the demand for postal products has
        remained own price inelastic. This implies that increases in the real prices of the market
        dominant postal products we studied will result in increased Postal Service revenue.

    •   As a theoretical matter, the total effect of all technological changes on the price
        elasticity of postal services is ambiguous. Factors such as increased modal competition
        from electronic alternatives on the demand for postal services may be expected to
        increase the elasticity of postal demands, other things equal. However, these effects can
        be offset, in whole or in part, by other interrelated changes. In particular, more elastic
        postal volumes may tend to be diverted to other modes first, so that remaining demand
        may be smaller and less elastic.

    •   The Postal Service’s January 2012 demand equations are usable as a baseline for testing
        whether own price elasticities have changed over time. While the Postal Service’s
        models have lost some economic content over successive model revisions, particularly
        insofar as they have dropped terms that explicitly modeled postal cross-product and
        electronic substitution effects, we do not view the models’ limitations as disqualifying.
        The Postal Service’s demand models otherwise are conceptually similar to time series
        models advanced in recent CRRI conference papers using time-series analysis.

    •   Neither the Postal Service’s January, 2012 models nor the alternative models in the CRRI
        conference papers explicitly allow for own price elasticities that change over time.
        However, the log-linear specifications used in the Postal Service models and in time
        series models from the CRRI conference papers can be augmented with interaction

2
  The January 2012 filing incorporates data through the end of FY 2011. The Postal Service released an update
incorporating FY 2012 data and other changes on January 22, 2013. Our analysis incorporates the FY 2012 data
from the 2013 filing, but otherwise uses the January 2012 demand models as its baseline.
3
  We refer to these below as “CRRI conference papers” for short.


                                                                                                                5
       terms between time variables and price to allow for time-varying elasticities. We
       specifically estimated dummy variable interaction models to allow for structural shifts in
       own price elasticities following the Great Recession.

   •   Rolling and recursive coefficient analysis, applied to appropriately specified models, also
       provide an indication of underlying trends in demand elasticities. These analyses
       effectively relax the log-linear demand models’ assumption of constant elasticity over
       the full sample period. These methods are somewhat limited in that they require
       relatively long samples of quarterly data to obtain reasonable estimates of the own
       price elasticity, among other demand model parameters. As a result, it is not possible to
       run the demand models solely on data after the Great Recession or other recent events.

   •   We discovered errors in the Postal Service’s calculation of specification test statistics
       needed to justify the functional form of its baseline econometric demand equations.
       The errors appear to have led the Postal Service’s analysts to believe that the demand
       data are stationary, when correct implementations of the tests indicate otherwise. We
       investigated both the USPS baseline models and alternative specifications, called error
       correction models (ECMs), to address the specification error. We found that own price
       elasticities from the ECMs were qualitatively, and to some extent quantitatively, similar
       to the USPS baseline results. We strongly recommend that the Postal Service develop
       appropriate revisions to its baseline models in line with corrected specification test
       results.

   •   Our analysis shows that own price elasticities for the Postal Service’s market dominant
       products are relatively stable over longer sample periods, and that there is no evidence
       of significant recent structural breaks in own price elasticities. The baseline demand
       models and the alternative ECM specifications can produce unstable elasticity results
       over shorter sample periods, but most of the instability is in the direction of less elastic
       demand, with the notable exception of the Commercial Standard Mail Enhanced Carrier
       Route product.

I.B. Scope of Analysis
There are several potentially important issues in Postal Service demand measurement that are
outside the scope of our analysis.

First, our analysis does not address the level or stability of own price elasticities for product
categories other than those reported in the Postal Services’ January 2012 filing, including
product definitions used for regulatory reporting since the implementation of the Postal
Accountability and Enhancement Act (PAEA). In particular, Postal Service’s January 2013 filing
incorporated a number of changes to the First-Class Mail demand models to the end of
improving alignment with PAEA product categories. Our analysis carries forward the older First-
Class Mail product categories. The Postal Service reports that models for some PAEA product
categories within Standard Mail are under study, but not yet sufficiently reliable for public



                                                                                                   6
release; we did not conduct a detailed analysis of alternative Standard Mail product groups in
the absence of a Postal Service baseline model. 4
Second, we did not revisit a number of details of the demand model specifications. The Postal
Service’s models incorporate a great deal of practical experience with “nuisance” variables in
the analysis, such as seasonal control variables, as well as selection of explanatory variables
such as macroeconomic activity indicators where economic theory is relatively silent as to the
details of the variable choice. In these cases, our review standard was whether the choices of
the Postal Service’s modelers are justifiable, and not whether they are ideal. We also did not
attempt to conduct further fine-tuning of the Postal Service models’ choice of explanatory
variables. Rather, we focused on major specification issues such as the non-stationary data
problem that led us to examine alternate ECM specifications of the demand models.

Finally, market dominant Package Services products—e.g., market dominant Parcel Post, Bound
Printed Matter, and Media Mail—were excluded from the analysis, as were competitive
shipping products. Demands for these market dominant products have a potentially complex
relationship with competitive shipping products, and public data on competitive products are
limited during the PAEA period. The analysis, then, focuses on products whose demands can be
estimated using publicly available data.


II. PRICE ELASTICITY AND THE STRUCTURE OF POSTAL DEMANDS

II.A. Price Elasticity
The price elasticity of demand is a concept that measures purchasers’ responsiveness to a
change in the price of a good. Price elasticity of demand is important to pricing strategy. It
indicates a firm’s pricing power for a particular product and that product’s ability to generate
profit or “contribution” to fixed cost recovery.

Technically, the price elasticity of demand εd is defined as the percentage change in quantity
demanded Qd resulting from a one percent change in price P. That is,

    (1) εd = %∆Qd / %∆P = (∆Qd /∆P) (P/Qd) ≤ 0.

The demand elasticity εd measures consumer response to a change in the price of a good, all
other factors the same. It is negative because consumers are willing to buy more of a good at
lower prices than at higher prices (i.e., the law of demand). The demand elasticity reflects the
shape of the demand curve, but differs from a simple slope measure. It is a scale-free number in
the sense that the demand elasticity does not depend on the measurement units of Q or P.

If the elasticity measure has a magnitude (absolute value) greater than unity (εd < -1), then
demand is classified as elastic and an increase in price results in a decrease in total revenue. If

4
  We carried out limited exploratory analysis to evaluate some Postal Service statements regarding its analysis,
including its claim that alternative Standard Mail models are not yet sufficiently reliable for public release.


                                                                                                                   7
the elasticity measure has a magnitude less than unity (εd > -1), then demand is inelastic and an
increase in price results in an increase in total revenue. If total revenue is at its maximum, then
εd = -1. The importance of the price elasticity of demand for pricing behavior is discussed in
more detail in Appendix A.

Relative elasticity is a comparison of different or changing demand situations. Relative elasticity
statements include phrases like “demand is less elastic” or “the more elastic demand,”
regardless of the whether the magnitude of εd is greater or less than unity. Figure 1 shows two
demand schedules. Demand depicted by D1 is relatively more elastic than demand represented
by D2. That is, at any price level, the magnitude of the elasticity of demand is greater for D1 than
for D2.

                                      Figure 1: Relative Elasticity




                                                                                                   The
graphs in Figure 2 represent two special cases of (or limits to) price elasticity of demand. First,
Figure 2a represents perfectly elastic demand. In this case the demand curve for the seller’s
product is horizontal and εd = -∞. The seller has many competitors, each selling a product which
is completely acceptable by the consumer as a substitute for the seller’s product. Consequently,
the seller has no pricing power because any increase in price would result in the loss of all the
seller’s sales to its rivals. The second limiting case, illustrated in Figure 2b is perfectly inelastic
demand. With perfectly inelastic demand, εd = 0 and the demand curve is vertical. That is, there
would be no check on the ability of the seller to raise price. Perfectly inelastic demand for a



                                                                                                     8
seller’s good would require that the seller have no competitors and that the good be an
absolute necessity at the observed quantities demanded.
                    Figure 2: Perfectly Elastic Demand and Perfectly Inelastic Demand

                           (a)                                                   (b)
        Perfectly Elastic Demand Curve                       Perfectly Inelastic Demand Curve




Both of these special cases are hypothetical cases that exist mainly in theory. Perfectly elastic
demand may be approximately accurate when there are many sellers selling a commodity and
there are low barriers to entry into and exit from the industry. Perfectly inelastic demand, on
the other hand, is a more unrealistic extreme. Even a pure monopolist will face demand
elasticity as consumers have ability to just consume less of the good as price rises. 5

II.B. Household and Business Demand for Postal Services
Households use postal services for many reasons. These include personal correspondence,
business purchases, bill payments, and the transfer of materials to other persons. The demands
for these postal services by individuals are founded in the behavior of households as they
choose how to save, or to spend incomes across the vast array of goods and services.
Economists see the household’s objective as one of attaining the maximum satisfaction (also
called utility) possible given an income or budget.

Some household consumption of postal services, such as writing a personal letter, directly
produces satisfaction. Other uses of postal services, such as paying a utility bill, do not produce
satisfaction in and of themselves, but are intermediate goods used in the process of obtaining
final consumption goods, such as air conditioning. To the extent that use of a postal service is
an intermediate input, then the demand determinants and properties are derived from the

5
 When we observe zero or positive own price elasticities empirically, as in the rolling coefficient analyses in
Section IV, below, we would normally view those as examples of regression model “failure.” However, it is possible
both that demands are highly inelastic over some ranges of prices and/or highly inelastic in the short run.


                                                                                                                9
demand for the final product and are thus similar to the business demand for postal services
discussed below. 6

Businesses use postal services as inputs in the process of making and marketing their products.
The business demands for postal services include direct mail (solicitation and advertising),
merchandise transport, business and legal communications, and bill presentation. The demands
for these postal services are founded in the behavior of businesses pursing their objectives.
Consequently, the demand for an input of production is derived from the demand for the final
product and also from the supply of other factors of production. This theory of derived
demand, first developed by Alfred Marshall,7 typically assumes the business is an enterprise
that produces and sells its product in an effort to achieve maximum profit. However, even if the
firm is a not-for-profit enterprise pursuing some other objective, its demand for inputs is still
derived from the final product market.8

II.C. Determinants of the Price Elasticity of Demand
There are several factors that determine the elasticity of demand for a good. Demand
determinants commonly include:

•   Availability of substitutes
•   Necessity
•   Importance in budget or share of production cost
•   Consumer loyalty and extent of product differentiation
•   Macroeconomic variables
•   Time

We examine determinants of the price elasticity of demand further in Appendix A.

II.D. The Distinction between a Change in Demand and a Change in the Elasticity of Demand
It is important to note that a change in demand does not necessarily mean a change in the
elasticity of demand. Specifically, a decrease in demand does not necessarily imply that
demand has become more elastic. This is illustrated by the graphs in Figure 3. A decrease in
demand is represented by the demand curve shifting to the left. Figure 3a depicts a parallel
shift in the demand curve. In this case at any price, demand is more elastic after the decrease in
demand. In contrast, Figure 3b represents a decrease in demand where the demand curve has
rotated somewhat to become relatively less elastic after the decrease in demand. In this case,
the elasticity measure at a given price has decreased in magnitude. This could be the result of


6
  A considerable literature exists on household production. A seminal article is Richard F. Muth, "Household
Production and Consumer Demand Functions,” Econometrica, Vol. 34, No. 3 (Jul., 1966), pp. 699-708.
7
  Marshall, Alfred (1948). Principles of Economics (Eighth Edition). New York: Macmillan pp. 383-386.
8
  A not-for-profit firm may have an objective of maximizing sales subject to remaining financially solvent. Even in
this case, if the firm operates in a competitive market and/or with weak demand, pursing its objective may end up
being close to maximizing profit.


                                                                                                                 10
the decrease in demand being the result of the departure of the more price sensitive
customers.

                  Figure 3: Demand Decreases and Impacts on Elasticity of Demand

                        (a)                                           (b)
       Demand elasticity increases                  Demand elasticity decreases




The evidence is clear that there has been a decline in demand for postal services in recent
years. However, the impact on the price elasticity of demand remains an empirical question.
While it is clear in both cases that the demand curve has shifted, it may not be readily apparent
from the change in quantities whether the demand curve has become steeper (less elastic) or
flatter (more elastic). Reviewing the decline in demand against the determinants of elasticity
also gives mixed signals. Readily available electronic substitutes would make demand for postal
services more elastic. The recession may decrease demand and make demand more elastic as
businesses view postage and printing bills as areas to extract cost savings. However, economic
recovery may strengthen demand and lessen price elasticity. And if expenditures on postal
services become a smaller share of household expenditures and business production cost,
demand may become less elastic. Finally, as the Postal Service market share decreases, the
impact on elasticity depends on which customers are being lost and which are being retained. If
the alternative services draw away customers with relatively elastic demands, the remaining
postal demand may be less elastic than before the market share loss. The issue is an empirical
question and the answer will be in the data.




                                                                                              11
III. ECONOMETRIC ESTIMATION METHODS FOR POSTAL SERVICE DEMANDS

III.A. Postal Service Baseline Models
The Postal Service describes its demand equations as log-linear functions of the form:

        ln 𝑉𝑡 = 𝛽0 + ∑𝑁
                      𝑖=1 𝜀𝑖 ln 𝑥𝑖,𝑡 + 𝑢𝑡 .


Vt is a volume measure; xi,t (i = 1 to N) are explanatory variables; ut is a residual (error) term;
and β0 and εi (i = 1 to N) are parameters. The Postal Service indicates that its log-linear models
have “been found to model mail volume quite well historically” and notes two “desirable
properties” of the model. First, the model “satisfies traditional least squares assumptions” and
can be estimated using ordinary least squares (OLS) regression methods. Second, the
parameters can be directly interpreted as elasticities, so the estimate of εi is the elasticity of
volume with respect to explanatory variable xi. In this model, the elasticities are constants that
“do not vary over time, nor do they vary with changes to either the volume or any of the
explanatory variables.” 9

In fact, the constant-elasticity restriction can be relaxed with relatively simple variations on the
log-linear model. Estimating the model over different sample periods effectively holds the
elasticities constant over those periods. If the true elasticities are changing substantially over
time, we would expect the estimated elasticities to vary when estimated over sufficiently
different sample periods. Also, by including interactions between explanatory variables and
time-related variables in the regression, time-varying effects can be included in the model. Our
analysis makes use of both sample period variation and interaction-based model-structure
changes to detect potential variations in the own price elasticities over time.

We used the models from the Postal Service’s January, 2012 filing of demand equations for
market dominant products as the baseline for our analysis (“USPS baseline models”). Our
analysis covers domestic First-Class Mail, Periodicals, and Standard Mail products.10

The USPS baseline models are descended from a line of ancestor models used to forecast
volumes and revenues in Postal Reorganization Act rate cases. Accordingly, there is a long-
running history of own price demand elasticities derived under similar econometric methods, a
portion of which is shown in Table 1, below. The exact specifications for the demand models
have been subject to frequent revision with the goal of producing accurate demand forecasts.
Thus, the history of elasticity estimates does not reflect a true constant methodology—major
changes have been made to model specifications, and to the sets of products included in the


9
  United States Postal Service, “Narrative Explanation of Econometric Demand Equations for Market Dominant
Products Filed with Postal Regulatory Commission on January 20,2012,” p. 2.
http://www.prc.gov/Docs/83/83424/NarrativeExplanationMarketDominant.doc.
10
   We also extended the analysis through FY 2012 using the data set provided with the Postal Service’s January
2013 demand model filing.


                                                                                                                 12
analysis. Nevertheless, the overall picture of the elasticity history is one of fairly stable, inelastic
demands for the major market dominant products.

The USPS baseline models’ dependent variable is quarterly mail volume for a given product,
normalized by the number of working days in the quarter and an estimate of the U.S. adult
population. The latter normalization treats population growth as a constant source of
exogenous demand pressure. The explanatory variables include measures of macroeconomic
activity Mt,11 a distributed lag of a “real” (CPI-deflated) price index Pt, and a number seasonal,
trend, and “intervention” variables to capture the effects of other factors affecting mail
volumes Zt. Thus the USPS baseline models can be written as:

        Ln 𝑉𝑡 = 𝛽0 + 𝜀𝑀 ln 𝑀𝑡 + ∑4𝑖=0 𝜀𝑖 ln 𝑃𝑡−𝑖 + 𝛾′𝑍𝑡 + 𝑢𝑡 .

The Postal Service’s demand models have had more explicit economic content in the past,
including prices of other postal services (postal cross price effects), non-postal prices, and
variables measuring factors such as Internet adoption that may drive electronic diversion. The
Postal Service’s analysts have justified dropping these additional economic variables on the
grounds that they do not help explain (or predict) mail volumes. Our view is that the current
state of the Postal Service demand equations is justifiable by inherent challenges in measuring
cross-price and Internet diversion effects. The theoretical desirability of including such effects is
limited by data availability and limitations of regression modeling of low frequency time
series. 12

For example, simple measures of broadband Internet market penetration in the U.S. show
adoption rates slowing even as postal volume losses from electronic diversion appear to be
accelerating for some products. While the apparent disconnection between Internet adoption
rates and diversion trends may be explicable—at least in theory—via factors such as long lags
between adoption and mail volume effects, or hard-to-observe qualitative characteristics of
electronic information services, incorporating such factors in the demand model may well be
impractical. From the standpoint of accurately measuring the own price elasticity with an
econometric analysis, the most important thing is that the model should include workable
control variables to minimize the possibility that the own price elasticities partly reflect
‘confounding’ effects due to correlation of the own price with other explanatory factors.




11
   The Postal Service develops trend and cyclical components of the macroeconomic variables using a Hodrick-
Prescott filtering procedure. The baseline models vary in whether they specify trend and/or cyclical components.
Our ECM specifications use unfiltered macroeconomic activity variables.
12
   The regression samples range from 52 quarterly observations for First-Class Workshared Cards to 108 quarters
for First-Class Single Piece Letters, Flats, and Parcels.


                                                                                                               13
                                                              Table 1. Own Price Elasticity History
  Class           Subclass or Product Category     1990    1994    1997     2000     2001     2005      2006     2007     2008    2009    2010    2011    2012
              Letters, Flats & Parcels (LFP)       0.245   0.188
              Single Piece LFP                                     0.189    0.262    0.311    0.175    0.184    0.232    0.218    0.192   0.182   0.189
              Single Piece Letters & Cards                                                                                                                0.090
              Single Piece Flats                                                                                                                          0.265
              Workshared LFP                                       0.289    0.251    0.071    0.329    0.130    0.246    0.250    0.436   0.346   0.436
First-Class   Workshared Letters, Flats, & Cards                                                                                                          0.392
   Mail       Parcels                                                                                                                                     0.213
              Postal Cards                         1.242   0.248   0.168    0.761    0.808
              Private Cards                        1.242   0.985   0.944    0.860    1.157
              Postcards                                                                       0.376
              Single-Piece Postcards                                                                   0.258    0.110    0.117    0.397   0.249   0.063
              Workshared Postcards                                                                     0.540    0.533    0.835    1.427   1.397   0.292
              Regular Rate                         0.291   0.145   0.143    0.148    0.166    0.193    0.294    0.245    0.260    0.082
              Within County                        0.546   0.395   0.530    0.142    0.157    0.235    0.141    0.165    0.152    0.207
              Nonprofit                            0.221   0.121   0.228    0.236
Periodicals
              Classroom                            1.305   0.994   1.178    0.407
              Nonprofit &Classroom                                                   0.092    0.237    0.212    0.258    0.330    0.276
              Total                                                                                                                       0.133   0.122   0.126
              Third Class Single Piece             0.476   0.484
              Third Class Regular Bulk             0.624
              Regular (Commercial non-ECR)                 0.331   0.382    0.570    0.388    0.267    0.296    0.368    0.311    0.244   0.286   0.335   .0437
Standard
  Mail        Enhanced Carrier Route (ECR)                 0.662   0.598    0.808    0.770    1.093    1.079    0.771    0.911    0.839   0.727   0.782   .0704
              Nonprofit Bulk/Nonprofit             0.258   0.442   0.136    0.162    0.230    0.319
              Nonprofit                                                                                0.306    0.105    0.176    0.165   0.177   0.265   0.299
            Nonprofit ECR                                                                               0.284    0.539    0.525   0.524   0.513   0.542   0.560
   Source: Various PRC omnibus rate case and annual PAEA compliance filings. Elasticities are reported in absolute value.




                                                                                                                                                          14
A recent paper by Cigno, Patel, and Pearsall sharply criticized the USPS baseline models for
omitting prices for other postal products (cross-price terms) from the demand equations, and
indeed contends that all possible postal cross-prices should be entered into the demand
equations to produce statistically valid elasticity estimates.13 This reflects the theoretical result
that all prices in the demand system, including prices of non-postal substitutes, can appear in
the demand function as a general matter. Cigno, et al., recognize that limitations of sample size
and multicollinearity among price measures can make estimation of the full set of cross-price
elasticities impractical using some methods. We note that there is also considerable room for
postal analysts to apply a priori knowledge to exclude many cross effects. Many postal products
have content or mailer restrictions that limit their substitutability, and others feature
preferential rates that mailers will not find uneconomical in the presence of small rate changes.
We also generally agree with the Postal Service’s analysts’ contention that major product-
substitution episodes tend to be driven by one-time events such as mail classification changes
or broader changes to pricing structures rather than small price variations on the margin.
Consequently, we do not regard the omission of postal cross prices to be a disqualifying defect
for the USPS baseline models.

We view the Postal Service’s demand equations serve as a workable baseline for investigating
whether own price elasticities of demand for market dominant products have changed over
time. While it may be possible to implement somewhat richer econometric demand models, we
must view the question of what explanatory variables belong in the models as ultimately an
empirical matter that the Postal Serivce’s analysts have explored in some depth.

We did discover one significant econometric error in the code for the January 2012 USPS
baseline models, which also affects the January 2013 demand filing. We discuss the error, and
the underlying econometric issue, in the next section.

III.B. Nonstationarity and Error Correction Models
Implicit in the claim that the Postal Service demand equations satisfy “traditional least squares
assumptions” is a significant qualification that the data—the dependent variable (volume) and
explanatory variables—must be “stationary.” Data arising from stationary time series have
stable distributions over time, at least after trends are removed from the data.14

A large body of research in time series econometric methods established that conventional OLS
regression methods could be inappropriate when applied to non-stationary data.15 A classic
problem, called “spurious regression,” occurs when a regression of y on x results in high R-

13
   Margaret M. Cigno, Elena S. Patel, and Edward S. Pearsall, “Estimates of U.S. Postal Price Elasticities of Demand
Derived from a Random-Coefficients Discrete-Choice Normal Model,” p. 1. http://www.prc.gov/prc-
docs/library/refdesk/techpapers/CignoPatelPearsall%20Paper_2761.pdf
14
   A stationary time series satisfies a number of technical conditions, including having a constant expected value,
bounded (finite) variance, and restrictions on the intertemporal correlation structure of the data.
15
   For an intuitive and even entertaining discussion of nonstationarity and cointegration, see Michael P. Murray, “A
Drunk and Her Dog: An Illustration of Cointegration and Error Correction.” The American Statistician, vol. 48(1),
1994.


                                                                                                                 15
squared values and statistically significant coefficient estimates, because the variables are
highly correlated, even when x does not have a causal effect on y. Regressing stationary
variables on non-stationary variables (or vice-versa) also can lead to problems in large samples
as the observed relationships may tend to zero (or infinity). 16

Nonstationary variables are often described by the differencing that is required to produce a
stationary result. A variable is “integrated of order 1” or I(1) if it is nonstationary but its first
difference is stationary. Violations of stationarity assumptions are important in econometrics
because economic theories predict that many macroeconomic and financial variables should
follow nonstationary data generating processes. Significantly for the Postal Service’s demand
analysis, these include quantities such as aggregate consumption, income, investment, and
output, which serve as or are closely related to economic activity drivers in the demand models.

A common test of stationarity is the Augmented Dickey-Fuller (ADF) test. The test is based on
the OLS regression:

        Δ𝑦𝑡 = 𝑏0 + 𝑏1 𝑡 + 𝜙𝑦𝑡−1 + ∑𝑁
                                   𝑖=1 𝛾𝑖 Δ𝑦𝑡−𝑖 + 𝑢𝑡


The null hypothesis of the ADF test is that yt is I(1), or φ = 0. The ADF test statistic is the t-
statistic for φ from the above regression (the coefficient estimate divided by the OLS estimated
standard error), though the ADF statistic does not follow a t distribution. Rejecting the null
hypothesis implies that yt is stationary. However, the ADF test has been criticized as having low
statistical power, that is, it may fail to reject the I(1) null hypothesis when the null is false and
the data are stationary. Alternative test statistics, such as the KPSS test, establish trend
stationarity as the null hypothesis against which the presence of a unit root is the alternative. 17

Two variables xt and yt that are I(1) are said to be “cointegrated” if a linear combination of the
variables is stationary. That is, we can write:

        𝑦𝑡 − 𝛽𝑥𝑡 = 𝑢𝑡 ,

with ut stationary. When xt and yt are cointegrated, the variables are related by an “error
correction model” (ECM) of the form:

        ∆𝑦𝑡 = 𝛼0 + 𝜃∆𝑥𝑡 + 𝜙(𝑦𝑡−1 − 𝛽𝑥𝑡−1 ) + 𝑒𝑡 .

The ECM differs from a regression of y on x in first differences by inclusion of the “equilibrium
error” term 𝑦𝑡−1 − 𝛽𝑥𝑡−1, which is the effect of y and x being out of their “equilibrium”



16
   See, e.g., James H. Stock and Mark W. Watson, “Variable Trends in Economic Time Series.” Journal of Economic
Perspectives, Vol. 2(3), 1988, p. 163-167.
17
   Denis Kwiatkowski, Peter C.B. Phillips, Peter Schmidt, and Yongcheol Shin, “Testing the null hypothesis of
stationarity against the alternative of a unit root.” Journal of Econometrics, vol. 54, 1992.


                                                                                                              16
relationship. The differenced variables and the equilibrium error term are all stationary, so the
ECM can be estimated via least squares regression methods. 18

The Postal Service’s analysts clearly have been aware of the potential for nonstationarity of the
demand data. The demand model filings report ADF test results for the volume variables
employed in the demand models, and for the demand models’ residuals. The reported test
results have rejected the null hypotheses of nonstationarity, and thus ostensibly justified the
use of traditional regression methods for stationary time series.

However, while reviewing the Postal Service’s estimation code, we found major errors in the
implementation of the ADF tests. The econometric code filed in January 2012 had errors in both
the implementation of the ADF regression and the calculation of the ADF t-statistic. The code in
the January 2013 filing corrected the regression specification but not the t-statistic calculation.
We computed the results of ADF tests for the volumes, unfiltered economic activity variables,
and prices in the demand equations we studied, based on a corrected version of the ADF test
implemented in the Postal Service’s demand model filing. 19 We also conducted a set of parallel
tests using the KPSS statistic. We used the Johansen trace statistic to test for the presence of
cointegtration where the stationarity testing indicated the data to be I(1). 20 Results are
provided in Table 2, below.

The ADF tests uniformly fail to reject the null hypothesis of nonstationarity for the volumes of
market dominant products and for the economic activity variables. Results for prices are mixed.
The ADF tests reject the I(1) null hypothesis in favor of stationarity at the 10 percent
significance level (or better) for Standard Mail prices except for Nonprofit Standard Mail
Regular (non-ECR). Additionally, the ADF statistics for Periodicals, First-Class Single Piece
Letters, and First-Class Workshared Cards prices are very close to the 10 percent critical values.
The KPSS test statistics also reject the null of trend stationarity for the volumes and economic
activity variables; they also tend to reject trend stationarity for the price variables.




18
   Variations on the ECM include seasonal differencing (sometimes applied to quarterly data, where the SPLY
difference yt - yt-4 may be more economically significant than the first difference), and the inclusion of stationary
regressors and additional lags of the I(1) variables. The ECM is a type of autoregressive model that also can be used
to analyze stationary data.
19
   The volumes and prices were transformed, and natural logarithms taken of the transformed variables, as in the
econometric demand models. We tested the unfiltered economic activity variables in natural logarithms.
20
   S. Johansen, Likelihood-Based Inference in Cointegrated Vector Autoregressive Models. Oxford University Press,
1995, chapters 11-12.


                                                                                                                  17
      Table 2. Results of Stationarity and Cointegtration Tests for Postal Service Demand Variables
Table 2a. KPSS and Augmented Dickey-Fuller Tests for Stationarity

                                              H0: Variable is Trend
                                                    Stationary               H0: Variable is I(1)
 Product/Variable                         KPSS Statistic      p-Value   ADF Statistic      p-Value
 1. Volumes
 Commercial Standard Mail Regular                0.44         < 0.01       -1.21           0.909
 Commercial Standard Mail ECR                    0.41         < 0.01       -2.42           0.369
 Nonprofit Standard Mail Regular                 0.34         < 0.01       -1.23           0.904
 Nonprofit Standard Mail ECR                     0.41         < 0.01       -2.54           0.310
 First-Class Single Piece Letters                0.70         < 0.01       2.02            1.000
 First-Class Workshared Letters                  0.47         < 0.01       -0.66           0.976
 First-Class Single Piece Cards                  0.54         < 0.01       1.06            1.000
 First-Class Workshared Cards                    0.37         < 0.01       -1.39           0.865
 Periodicals                                     0.44         < 0.01       -0.11           0.993

 2. Price Indexes
 Commercial Standard Mail Regular                0.14         < 0.1*       -3.76           0.019
 Commercial Standard Mail ECR                    0.19      < 0.025***      -4.26           0.004
 Nonprofit Standard Mail Regular                 0.19      < 0.025***      -2.60           0.282
 Nonprofit Standard Mail ECR                     0.12         < 0.1*       -3.24           0.076
 First-Class Single Piece Letters                0.20      < 0.025***      -3.13           0.099
 First-Class Workshared Letters                  0.29         < 0.01       -2.24           0.465
 First-Class Single Piece Cards                  0.26         < 0.01       -2.09           0.554
 First-Class Workshared Cards                    0.13         < 0.1*       -3.03           0.123
 Periodicals                                     0.16       < 0.05**       -3.01           0.130

 3. Economic Activity Variables
 Investment (1988Q1-2012Q4)                     0.45          < 0.01       -1.35           0.876
 Employment (1983Q1-2012Q4)                     0.54          < 0.01       -1.59           0.796
 * Reject H0 at 10% significance level but not 5%
 ** Reject H0 at 5% significance level but not 2.5%
 *** Reject H0 at 2.5% significance level but not 1%


Table 2b. Johansen Trace and Maximum Eigenvalue Tests for Cointegration (H0: Cointegrating Rank is 0)
                                                                                                      Estimated #
                                                                            Max                            of
                                                Trace                   Eigenvalue                   cointegrating
 Product                                       Statistic     p-Value     Statistic        p-Value       vectors
 Commercial Standard Mail Regular               18.04         < 0.05       15.47           < 0.05          1
 Commercial Standard Mail ECR                   37.58         < 0.01       27.39           < 0.01          1
 Nonprofit Standard Mail Regular                95.15         < 0.01       84.86           < 0.01          1
 Nonprofit Standard Mail ECR                    26.47         < 0.01       23.87           < 0.01          1
 First-Class Single Piece Letters               41.51         < 0.01       25.10           ~0.01          1-2*
 First-Class Workshared Letters                 47.87         < 0.01       36.00           < 0.01          1
 First-Class Single Piece Cards                 29.35         ~0.05        18.87           > 0.05          1
 First-Class Workshared Cards                   18.70         < 0.05       10.05           > 0.05          1
 Periodicals                                    12.79         > 0.05       12.79           > 0.05        0-1**
* Higher p-value for 2 cointegrating vectors
** Can reject H0 on sample through FY 2011




                                                                                                                     18
The result that the price variables are not trend stationary is somewhat counterintuitive. Over
the long run, indexes of U.S. postal prices have not tended to diverge significantly from the
Consumer Price Index (CPI). To the extent the fixed-weight price indexes for the postal products
are proportional to CPI, then their ratio—the “real” price—would be stationary. The CPI price
caps under PAEA would be expected to impose such a relationship for the product aggregates
where the caps apply; pre-PAEA pricing policies may have served to limit divergence between
some Postal Service rates and CPI as well.21 On the other hand, pre-PAEA price adjustments led
to occasional large changes in “real” prices, and the PAEA caps do not necessarily constrain
prices at the product level (within classes) to CPI.

The Johansen trace tests showed the volumes, prices, and economic activity variables to be
cointegrated for the products under study, generally with a single cointegrating vector. The
main exception was Periodicals, where the trace test could not reject the hypothesis of no
cointegration for the full sample (1993 Q1-2012 Q4) at a p-value of 0.05, though other tests
showed the presence of a cointegrating vector. 22

Given the results in Table 2, we conducted our analysis using both a modified USPS baseline
model and ECM implementations of the Postal Service demand equations. Because the USPS
baseline models have been the source of official demand elasticities, the behavior of those
models may still be of interest. Additionally, since there is much less experience with ECM
specifications for USPS demand models than with the USPS baseline models, understanding the
current models’ (mis)behavior under alternative samples and other specification changes may
provide a useful yardstick for evaluating the performance of the ECMs.

III.C. Modified USPS Baseline Demand Models
While the Postal Service demand models are based on log-linear demand functions, the specific
econometric implementation of the models introduce some nonlinearities and multi-step
estimation procedures. To avoid some computational issues with the rolling and recursive
parameter analyses, we employed one-step linear models that yield very similar results to the
Postal Service’s filed models.

One set of changes concerns the distributed lag of price variables on the right-hand side of the
regression equation. Since the current and lagged prices are highly intercorrelated,
unconstrained estimates of the coefficients for the distributed lag are often highly volatile;

21
   The lower frequency of rate cases under the Postal Reorganization Act tended to result in larger nominal
increases than the more frequent but smaller rate changes under the PAEA price cap system, but the effects of
inflationary erosion of the real value of the increases leave relatively little long-run trend in the real fixed-weight
price indexes for the products under study in either the PRA or PAEA periods. A recent study found that UK postal
prices deflated by the Retail Price Index (RPI) were stationary or I(0). The study noted that UK postal prices have
subject to an RPI-X price cap since 2003. See Leticia Veruete-McKay, Soterios Soteri, John Nankervis, and Frank
Rodriguez, “Letter Traffic Demand in the UK: An Analysis by Product and Envelope Content Type,” Review of
Network Economics, Vol. 10(3), September 2011.
22
   These included the Johansen maximum eigenvalue test and the trace test performed on the subset of data
through FY 2011.


                                                                                                                     19
anomalous results such as large positive elasticities are not uncommon. We used a polynomial
distributed lag (PDL) model, which constrains the coefficients of the distributed lag to fall on a
second-order (quadratic) polynomial. The PDL model can be implemented as a set of linear
constraints on the demand model parameters. The Postal Service’s approach uses a method
which does not require the coefficients to fall exactly on the lag polynomial (called the Shiller
“smoothness prior” method), but which requires setting a parameter in advance of the model
estimation. Postal Service analysts had previously reported that the Shiller method and the PDL
model produce similar results. 23 Additionally, we use four lags of the price index variable for all
products. In some cases, the Postal Service’s baseline models constrain the elasticities to zero
for certain lags. While the criteria for lag selection are not explained in the Postal Service’s
recent filings, we expect that the primary motivation was to avoid cases where the elasticities
for certain lags had the “wrong” sign. In a number of cases, we found that the estimated
elasticities for lags that were set to zero in the Postal Service models were not anomalous.

The other change concerns nonlinear “interventions” included in the demand models for some
(but not all) products. The interventions are included in the models to reflect the effects of
exogenous determinants of demand that are not otherwise measured, such as electronic
diversion effects. The interventions generally take the form:

        𝐼𝑡 = 𝜔0 𝑃𝑡 + 𝜔1 (𝑃𝑡−1 + 𝛿𝑃𝑡−2 + 𝛿 2 𝑃𝑡−3 + ⋯ ) + 𝜔2 𝑆𝑡 + 𝜔3 𝑇𝑡 . 24

It is linear in the variables Pt, St, and Tt, but nonlinear in the parameters due to the coefficient δ
on the lagged pulse terms. We used the Postal Service’s estimates of δ to compute “decay”
variables:

        𝐷𝑡 = 𝑃𝑡−1 + 𝛿̂ 𝑃𝑡−2 + 𝛿̂ 2 𝑃𝑡−3 + ⋯

and we estimated the other transfer function parameters using:

        𝐼𝑡 = 𝜔0 𝑃𝑡 + 𝜔1 𝐷𝑡 + 𝜔2 𝑆𝑡 + 𝜔3 𝑇𝑡 .

In some models, notably for single piece and workshared First-Class Mail letters, flats, and
parcels, the interventions in the Postal Service models assume (at least) 𝜔1 = 0, in which case
our implementation is not restricted relative to the Postal Service baseline models.

Finally, the Postal Service models incorporate a Cochrane-Orcutt transformation of the data to
adjust for autocorrelation of the regression residuals. This involves obtaining an estimate of the
residual autocorrelation coefficient from an OLS regression, transforming the data, and re-
running the regression using the transformed data. Since the transformation is not required to
obtain consistent coefficient estimates, we omitted it. However, standard variance formulas are

23
  Postal Rate Commission, Docket No. R90-1, Direct Testimony of George S. Tolley (USPS-T-2), pages I-43 to I-46.
24
  United States Postal Service, “Narrative Explanation of Econometric Demand Equations for Market Dominant
Products Filed with Postal Regulatory Commission on January 20,2012,” p. 11.


                                                                                                               20
not appropriate for OLS coefficient estimates are inappropriate when the disturbances are
autocorrelated. We computed standard error estimates using heteroskedasticity- and
autocorrelation-consistent methods.

We based our modified baseline models on the Postal Service’s January 2012 demand model
filing with the Postal Regulatory Commission, which incorporated data through the end of
FY2011. We extended our analysis through FY2012 using the dataset provided with the Postal
Service’s January, 2013 demand model filing. We maintained the January 2012 methodology, to
the extent possible, in extending our models into FY2012. An exception is that we added
dummy variables, trends, or other interventions for events specific to FY2012, which would
have been unobservable in the data through FY2011. We found that adding FY2012
observations to the FY2011 models had little effect on the own price elasticities for the full
sample periods.

The long-run elasticity estimates from the USPS filings and our modified baseline models are
reported in Table 3, below. The results are qualitatively and quantitatively quite similar. Note
that since there were a number of changes in the January 2013 USPS baseline models over
2012, results from the most recent USPS baseline models are not directly comparable in a
number of cases.
     Table 3. Comparison of Long-Run Own Price Elasticities from USPS Demand Models and LRCA
           Modified Baseline Models, Full Sample Periods Ending Q4 FY2011 and Q4 FY2012
                                                          Long-Run Own Price Elasticities (Standard Errors in Parentheses)
                                                                 USPS Baseline                      Modified Baseline
                                                        January 2012      January 2013
                                        First Sample   (Data through     (Data through       Data through      Data through
             Product                    Quarter [1]        FY2011)          FY2012)            FY2011             FY2012
         Standard Regular               FY1988,PQ1          -0.335           -0.437             -0.354            -0.359
                                                                                                (0.109)           (0.102)
           Standard ECR                 FY1988,PQ1          -0.782           -0.704             -0.777            -0.782
                                                                                                (0.051)           (0.053)
        Standard Nonprofit              FY1988,PQ1          -0.265           -0.299             -0.302            -0.293
                                                                                                (0.087)           (0.095)
      Standard Nonprofit ECR            FY1988,PQ1          -0.542           -0.560             -0.568            -0.618
                                                                                                (0.136)           (0.112)
             Periodicals                FY1993,PQ1          -0.122           -0.126             -0.069            -0.104
                                                                                                (0.027)           (0.039)
 First-Class Single Piece Cards [2]     FY1989,PQ1          -0.062             n/a               0.008            -0.005
                                                                                                (0.067)           (0.067)
 First-Class Workshared Cards [3]       FY2000,PQ1          -0.291             n/a              -0.395            -0.504
                                                                                                (0.168)           (0.109)
 First-Class Single Piece Letters [4]   FY1983,PQ1          -0.189           -0.090             -0.331            -0.347
                                                                                                (0.036)           (0.036)
 First-Class Workshared Letters [5]     FY1994,PQ1          -0.434           -0.391             -0.449            -0.456
                                                                                                (0.040)           (0.040)
Notes
[1] USPS January 2012 models
[2] Combined with First-Class Single-Piece Letters in January 2013 USPS Baseline
[3] Combined with First-Class Workshared Letters in January 2013 USPS Baseline
[4] Includes cards, and excludes flats and parcels, in January 2013 USPS baseline
[5] Includes cards, and excludes workshared parcels, in January 2013 USPS baseline



                                                                                                                              21
III.D. Error Correction Models
As noted above, when we correctly implemented ADF and cointegration tests for Postal Service
volumes and other economic data in the demand model, we could not reject the null
hypothesis that the variables were nonstationary and cointegrated. Accordingly, we
investigated ECM specifications of the Postal Service’s demand models.

The primary ECM specification we employed treats the volume, price index, and economic
activity variables as I(1) and cointegrated, based on the test results reported in Tables 2a and
2b. The estimating equations have the form:

Δ ln 𝑉𝑡 = 𝛼0 + 𝜙(ln 𝑉𝑡−1 − 𝛽1 ln 𝑀𝑡−1 − 𝛽2 ln 𝑃𝑡−1 ) + 𝜃1 Δ ln 𝑀𝑡 + 𝜃2 Δ ln 𝑃𝑡 + 𝛼 ′ 𝑍𝑡 + 𝑒𝑡 .

Where Vt is the normalized volume, Xt is the unfiltered economic activity variable, Pt is the own
price index, and Zt includes seasonal, trend, intervention, and any other control variables. The
coefficient β2 is interpreted as the long-run (equilibrium) own price elasticity, while θ2 is a
short-run adjustment effect with respect to the own price. 25

The long-run elasticity estimates from the ECMs are reported in Table 4, below. Results are
qualitatively similar to the USPS baseline models. The demand elasticities are less than one in
absolute value, and thus provide a broadly similar picture of inelastic demands to the baseline
models. Products with relatively large (more elastic) demands in the USPS baseline models,
such as Commercial and Nonprofit Standard Mail ECR, also have somewhat larger own price
elasticities in the ECMs.




25
  We also investigated a second ECM specification suitable for cases where the price index is stationary, with the
volume and economic activity variables cointegrated. This model included volume and the economic activity
variable in the equilibrium error, and a polynomial distributed lag of prices (in levels) like the modified baseline
model. We found generally similar results from this model, the baseline model, and the main ECM specification.


                                                                                                                   22
Table 4. Long-run Own Price Elasticities from Error Correction Models, Full Sample Periods Ending Q4
                                        FY2011 and Q4 FY2012
                                        Long-RunOwn Price Elasticities (Standard Errors in Parentheses)

                                             Baseline Models                  Error Correction Model
                                                       LRCA Modified,
                                      USPS Baseline,    Data through      Data through      Data through
             Product                   January 2012       FY2011            FY2011            FY2012
         Standard Regular                 -0.335           -0.354            -0.306            -0.312
                                                          (0.109)           (0.101)           (0.094)
           Standard ECR                   -0.782           -0.777            -0.555            -0.549
                                                          (0.051)           (0.111)           (0.093)
         Standard Nonprofit               -0.265           -0.302            -0.191            -0.180
                                                          (0.087)           (0.030)           (0.031)
      Standard Nonprofit ECR              -0.542           -0.568            -0.577            -0.589
                                                          (0.136)           (0.082)           (0.069)
             Periodicals                  -0.122           -0.069            -0.085            -0.114
                                                          (0.027)           (0.017)           (0.027)
   First-Class Single Piece Cards         -0.062            0.008            -0.203            -0.179
                                                          (0.067)           (0.100)           (0.091)
   First-Class Workshared Cards           -0.291           -0.395            -0.347            -0.683
                                                          (0.168)           (0.229)           (0.105)
   First-Class Single Piece Letters       -0.189           -0.331            -0.151            -0.144
                                                          (0.036)           (0.045)           (0.047)
   First-Class Workshared Letters         -0.434           -0.449            -0.385            -0.393
                                                          (0.040)           (0.034)           (0.030)



IV. TESTING STABILITY OF OWN PRICE ELASTICIITES

IV.A. Rolling and Recursive Coefficient Analysis
The standard theory of linear regression analysis posits an estimating equation that holds over
the entire sample period:

         𝑦𝑡 = 𝑥𝑡 ∙ 𝛽 + 𝑢𝑡 , 𝑡 = 1, ⋯ , 𝑇;

where xt and β are K x 1 vectors of explanatory variables and parameters, respectively, ut is a
random disturbance term uncorrelated with xt and with zero mean, and T > K. As noted above,
the Postal Service demand equations make this type of structural assumption, with the
implication that the elasticities (the coefficients) are constant over the sample period. Of
course, if the regression equation holds for the full sample, it also holds for every subsample:

         𝑦𝑡 = 𝑥𝑡 ∙ 𝛽 + 𝑢𝑡 , 𝑡 = 𝑡1 , ⋯ , 𝑡2 ; 1 ≤ 𝑡1 < 𝑡2 ≤ 𝑇.

Regression estimates of β from the full sample and subsamples will, under the standard
assumptions, equal the “true” value of β plus a mean-zero error—i.e., the estimates will be
unbiased. However, estimates from shorter subsamples will tend to have larger error variances
compared to longer subsamples. If the coefficients are, in fact, constant over the sample
period, then graphs of estimates taken from a series of adjacent subsamples will show an




                                                                                                           23
absence of a trend, since the estimates will be a constant (the “true” parameter value) plus
noise. The noise term will tend to have a larger standard error for shorter subsamples.

“Rolling” and “recursive” coefficient analyses employ coefficient estimates from sequences of
adjacent subsamples to investigate the stability of regression coefficients. The methods differ in
the sequences of subsamples, and have advantages and disadvantages in identifying certain
types of changes to the coefficients.

In the “rolling” analysis, the first subsample begins at period 1 and ends at period T0, where
K<T0<T. T0 is sometimes called the “window” length for the rolling analysis. The second
subsample consists of the T0 observations from period 2 to period T0+1, and so on, until the
final subsample of T0 observations ends in period T. The “recursive” analysis starts with the first
T0 observations, like the rolling analysis, but subsequent subsamples do not drop the early
observations. Thus the second subsample is from period 1 to period T0+1, and so on, until the
last recursive subsample is the full sample from period 1 to period T. The recursive analysis
shows the effect of adding observations to the end of subsequent samples, and ends with the
full-sample estimate. Finally, a “reverse recursive” analysis shows the effects of dropping
observations from the start of the full sample period. It starts with the full sample t=1,…,T, and
drops early observations from subsequent subsamples, so that the second subsample is from
period 2 to period T, and the last subsample is estimated over the final window of length T0
ending at T—i.e., the final subsample from the rolling analysis.

Rolling and reverse recursive analysis will tend to be more sensitive to changes in the
coefficients in later time periods, compared to the recursive analysis, since later rolling and
reverse recursive subsamples drop observations from early in the sample that might reflect a
different underlying model structure. However, the estimates from rolling subsamples will tend
to be “noisier” than the longer subsamples for the recursive analysis as the shorter sample
periods compared to the recursive analysis will tend to increase the sampling variance of the
coefficient estimates. Conversely, retaining earlier data tends to reduce the variance of the
coefficient errors in longer recursive subsamples (which approach the full sample period), but
may attenuate the effects of structural changes.

All three methods are limited in that the shortest subsample that can be estimated is K+1
periods, where K is the number of explanatory variables in the model. In practice, the shortest
subsamples that produce reasonable results may be much longer. If a regression model using
quarterly data has 19 explanatory variables, then the minimum sample window is 20 quarters,
or five years’ worth of data. This may not be sufficient to draw out changes that may have
occurred near the end of the full sample period. Indeed, the USPS baseline models typically
have upwards of 20 explanatory variables, most of which are seasonal, trend, and intervention
terms. We ran the rolling and recursive analysis using windows of 40 and 60 quarters. We found
some elasticity estimates using 40-quarter sample windows to be highly volatile, though the
recursive coefficient analyses showed relatively stable elasticities using both the modified USPS
baseline models and ECM specifications.



                                                                                                24
IV.B. Results of Rolling and Recursive Parameter Analysis
The rolling and recursive analyses of the USPS baseline and ECM demand model specifications
show some model instability over some rolling subsamples, while the recursive analysis shows
relatively stable own price elasticities as the sample periods are lengthened. With a few
exceptions, most of the instability of the elasticities in the rolling samples is in the direction of
zero elasticity rather than larger elasticities.

IV.B.1. Commercial Standard Mail Regular
Figures 4a and 4b show long-run elasticities for Commercial Standard Mail Regular from rolling
and recursive analysis using the modified USPS baseline and the ECM specification, respectively.
In these graphs (and similar figures for other products), we show the end period for the rolling
and recursive samples. This helps identify whether apparent trend breaks correspond with the
inclusion of data from periods of interest such as the Great Recession. 26

In both models, the own price elasticities from nearly all of the rolling samples are smaller than
in the recursive samples. This indicates that including older observations does not necessarily
result in less elastic measured demands; in this case, the older data appear to be keeping the
measured elasticities larger than they would be with more recent samples.

The 60-quarter rolling samples through the sample ending in FY2009 quarter 1 are mostly
between about -0.15 and -0.25. 27 Beginning with the sample including FY2009 quarter 2—i.e.,
quarter 1 of calendar 2009, the quarter following severe financial-market disruptions prior to
the 2008 election—the rolling samples jump towards zero, and mostly stay in the vicinity of
zero or produce “wrong sign” elasticities. However, the 40-quarter rolling samples show
increased volatility prior to the onset of the recession. The recursive samples are much more
stable over time in all models, though a shift to smaller elasticities at FY2009 quarter 2 is still
visible in the graphs. Cumulative sum (CUSUM) test indicate a possible structural break in both
the baseline and ECM models, though the results are not statistically significant.

The timing of the shifts in the Commercial Standard Mail Regular elasticities could reflect
uncontrolled effects of the Great Recession. The January 2012 USPS baseline model includes a
nonlinear intervention variable to capture Great Recession effects on volume. However, the
start period for the intervention is FY2008 quarter 2, so the intervention variable does not
account for the worsening recession in FY2009.28 Another possible factor is that the included
macroeconomic activity variable, investment, has diverged from Commercial Standard Mail
Regular volumes in the recovery.


26
   Note that the scales of the graphs are the same for each product, but owing to differences in the levels and
variability of the results, not across products.
27
   A reverse recursive analysis shows that starting the sample slightly later than the FY1988 Q1 start of the sample
for the USPS baseline model would also result in a smaller elasticity for Commercial Standard Mail Regular.
28
   The NBER calendar date for the start of the recession was December, 2007, which is in quarter 1 of the 2008
Postal Service fiscal year.


                                                                                                                  25
                       Figure 4a. Rolling and Recursive Analysis for Standard Regular, Modified Baseline
                                                                     Standard Mail Commercial Regular, Own-Price Elasticities from Rolling and Recursive Samples
                                                                                                      Modified USPS Baseline

                       -0.6


                       -0.5


                       -0.4
Long-Run Elasticity




                       -0.3


                       -0.2


                       -0.1
                              1997q4

                                        1998q2

                                                  1998q4

                                                            1999q2

                                                                       1999q4

                                                                                 2000q2

                                                                                           2000q4

                                                                                                     2001q2

                                                                                                               2001q4

                                                                                                                         2002q2

                                                                                                                                   2002q4

                                                                                                                                              2003q2

                                                                                                                                                        2003q4

                                                                                                                                                                  2004q2

                                                                                                                                                                            2004q4

                                                                                                                                                                                      2005q2

                                                                                                                                                                                                2005q4

                                                                                                                                                                                                          2006q2

                                                                                                                                                                                                                    2006q4

                                                                                                                                                                                                                              2007q2

                                                                                                                                                                                                                                        2007q4

                                                                                                                                                                                                                                                  2008q2

                                                                                                                                                                                                                                                            2008q4

                                                                                                                                                                                                                                                                      2009q2

                                                                                                                                                                                                                                                                                2009q4

                                                                                                                                                                                                                                                                                          2010q2

                                                                                                                                                                                                                                                                                                    2010q4

                                                                                                                                                                                                                                                                                                              2011q2

                                                                                                                                                                                                                                                                                                                        2011q4

                                                                                                                                                                                                                                                                                                                                  2012q2

                                                                                                                                                                                                                                                                                                                                            2012q4
                         0


                        0.1


                        0.2


                        0.3


                        0.4



                                                                                                                                                                               Sample End Period



                                                                                                                                                 Recursive                                      Rolling40                                  Rolling60




                       Figure 4b. Rolling and Recursive Analysis for Standard Mail Regular, ECM Version 1

                                                                      Standard Mail Commercial Regular, Own-Price Elasticities from Rolling and Recursive Samples
                                                                                                        Error Correction Model

                       -0.6

                       -0.5

                       -0.4
 Long-Run Elasticity




                       -0.3

                       -0.2

                       -0.1
                               1997q4

                                         1998q2

                                                   1998q4

                                                             1999q2

                                                                        1999q4

                                                                                  2000q2

                                                                                            2000q4

                                                                                                      2001q2

                                                                                                                2001q4

                                                                                                                          2002q2

                                                                                                                                    2002q4

                                                                                                                                               2003q2

                                                                                                                                                         2003q4

                                                                                                                                                                   2004q2

                                                                                                                                                                             2004q4

                                                                                                                                                                                       2005q2

                                                                                                                                                                                                 2005q4

                                                                                                                                                                                                           2006q2

                                                                                                                                                                                                                     2006q4

                                                                                                                                                                                                                               2007q2

                                                                                                                                                                                                                                         2007q4

                                                                                                                                                                                                                                                   2008q2

                                                                                                                                                                                                                                                             2008q4

                                                                                                                                                                                                                                                                       2009q2

                                                                                                                                                                                                                                                                                 2009q4

                                                                                                                                                                                                                                                                                           2010q2

                                                                                                                                                                                                                                                                                                     2010q4

                                                                                                                                                                                                                                                                                                               2011q2

                                                                                                                                                                                                                                                                                                                         2011q4

                                                                                                                                                                                                                                                                                                                                   2012q2

                                                                                                                                                                                                                                                                                                                                              2012q4




                         0

                       0.1

                       0.2

                       0.3

                       0.4


                                                                                                                                                                                 Sample End Period


                                                                                                                                             Recursive                                     Rolling40                                    Rolling60




                                                                                                                                                                                                                                                                                                                                                       26
IV.B.2. Commercial Standard Mail Enhanced Carrier Route (ECR)
Figures 5a and 5b show long-run elasticities from rolling and recursive analyses for Commercial
Standard Mail ECR. In contrast to the results for Commercial Regular, the rolling samples for
Commercial ECR mostly produce larger elasticities than the recursive samples. A number of
rolling samples for the both the USPS baseline model show results in the vicinity of unit
elasticity. 29 However, later rolling samples are closer to the recursive estimates. The recursive
estimates are relatively stable over time, and show little evidence of trends. In the ECM, the
rolling elasticities fluctuate in the vicinity of -0.8 for some time, with a large departure from
trend for 40-quarter samples ending in FY2004 and FY2005, but eventually rejoin the recursive
trend. Neither the rolling nor the recursive samples show signs of structural breaks in the
elasticities associated with the Great Recession.

                                      Figure 5a. Rolling and Recursive Analysis for Standard ECR, Modified Baseline
                                                                            Standard Mail Commercial ECR, Own-Price Elasticities from Rolling and Recursive Samples
                                                                                                           Modified USPS Baseline

                               -1.6



                               -1.4



                               -1.2
         Long-Run Elasticity




                                -1



                               -0.8



                               -0.6



                               -0.4



                               -0.2
                                      1997q4

                                               1998q2

                                                        1998q4

                                                                 1999q2

                                                                          1999q4

                                                                                   2000q2

                                                                                            2000q4

                                                                                                     2001q2

                                                                                                              2001q4

                                                                                                                       2002q2

                                                                                                                                2002q4

                                                                                                                                         2003q2

                                                                                                                                                    2003q4

                                                                                                                                                             2004q2

                                                                                                                                                                      2004q4

                                                                                                                                                                               2005q2

                                                                                                                                                                                         2005q4

                                                                                                                                                                                                  2006q2

                                                                                                                                                                                                           2006q4

                                                                                                                                                                                                                    2007q2

                                                                                                                                                                                                                             2007q4

                                                                                                                                                                                                                                      2008q2

                                                                                                                                                                                                                                               2008q4

                                                                                                                                                                                                                                                        2009q2

                                                                                                                                                                                                                                                                 2009q4

                                                                                                                                                                                                                                                                          2010q2

                                                                                                                                                                                                                                                                                   2010q4

                                                                                                                                                                                                                                                                                            2011q2

                                                                                                                                                                                                                                                                                                     2011q4

                                                                                                                                                                                                                                                                                                              2012q2

                                                                                                                                                                                                                                                                                                                       2012q4
                                 0



                                                                                                                                                                         Sample End Period



                                                                                                                                                  Recursive                             Rolling40                            Rolling60




29
  CUSUM tests indicate a structural break around FY 1999-FY 2000, which is statistically significant in the ECM
though not the baseline model.


                                                                                                                                                                                                                                                                                                                                27
                                         Figure 5b. Rolling and Recursive Analysis for Standard ECR, ECM Version 1
                                                                                 Standard Mail Commercial ECR, Own-Price Elasticities from Rolling and Recursive Samples
                                                                                                                Error Correction Model

                             -1.6



                             -1.4



                             -1.2
       Long-Run Elasticity




                              -1



                             -0.8



                             -0.6



                             -0.4



                             -0.2
                                    1997q4

                                             1998q2

                                                      1998q4

                                                               1999q2

                                                                        1999q4

                                                                                 2000q2

                                                                                          2000q4

                                                                                                   2001q2

                                                                                                            2001q4

                                                                                                                     2002q2

                                                                                                                              2002q4

                                                                                                                                       2003q2

                                                                                                                                                 2003q4

                                                                                                                                                          2004q2

                                                                                                                                                                   2004q4

                                                                                                                                                                            2005q2

                                                                                                                                                                                      2005q4

                                                                                                                                                                                               2006q2

                                                                                                                                                                                                        2006q4

                                                                                                                                                                                                                 2007q2

                                                                                                                                                                                                                          2007q4

                                                                                                                                                                                                                                   2008q2

                                                                                                                                                                                                                                            2008q4

                                                                                                                                                                                                                                                     2009q2

                                                                                                                                                                                                                                                              2009q4

                                                                                                                                                                                                                                                                       2010q2

                                                                                                                                                                                                                                                                                2010q4

                                                                                                                                                                                                                                                                                         2011q2

                                                                                                                                                                                                                                                                                                  2011q4

                                                                                                                                                                                                                                                                                                           2012q2

                                                                                                                                                                                                                                                                                                                    2012q4
                               0



                                                                                                                                                                       Sample End Period


                                                                                                                                                Recursive                            Rolling40                            Rolling60




IV.B.3. Nonprofit Standard Mail Regular
Figures 6a and 6b show long-run elasticities from rolling and recursive analyses for Nonprofit
Standard Mail Regular. Like Commercial Regular, the elasticities from the rolling samples are
mostly smaller than the elasticities from recursive samples. In the ECM version, the rolling
samples show some divergence from the recursive trend towards zero in the late PAEA period,
then return to the recursive series during FY2009. The 40- and 60-quarter rolling elasticities
from both the baseline model and ECM show considerable volatility in the last rolling samples,
possibly indicating a FY2012 event that the January 2012 baseline models do not handle. The
elasticities from the recursive samples show a slight trend towards smaller elasticities over time
in the baseline model; the recursive elasticities from the ECM show little trend. There is no
indication from CUSUM tests of significant structural breaks in the models. Unlike the other
Standard Mail equations, the Nonprofit Regular equation includes an intervention variable
dated to FY2009 quarter 2.




                                                                                                                                                                                                                                                                                                                             28
                      Figure 6a. Rolling and Recursive Analysis for Standard Nonprofit, Modified Baseline

                                                                                     Standard Mail Nonprofit Non-ECR, Own-Price Elasticities from Rolling and Recursive Samples
                                                                                                                      Modified USPS Baseline

                       -0.6




                       -0.4
Long-Run Elasticity




                       -0.2
                              1997q4

                                         1998q2

                                                    1998q4

                                                               1999q2

                                                                          1999q4

                                                                                      2000q2

                                                                                                 2000q4

                                                                                                            2001q2

                                                                                                                       2001q4

                                                                                                                                  2002q2

                                                                                                                                             2002q4

                                                                                                                                                       2003q2

                                                                                                                                                                 2003q4

                                                                                                                                                                            2004q2

                                                                                                                                                                                      2004q4

                                                                                                                                                                                                2005q2

                                                                                                                                                                                                          2005q4

                                                                                                                                                                                                                    2006q2

                                                                                                                                                                                                                              2006q4

                                                                                                                                                                                                                                         2007q2

                                                                                                                                                                                                                                                   2007q4

                                                                                                                                                                                                                                                             2008q2

                                                                                                                                                                                                                                                                       2008q4

                                                                                                                                                                                                                                                                                 2009q2

                                                                                                                                                                                                                                                                                           2009q4

                                                                                                                                                                                                                                                                                                     2010q2

                                                                                                                                                                                                                                                                                                               2010q4

                                                                                                                                                                                                                                                                                                                         2011q2

                                                                                                                                                                                                                                                                                                                                   2011q4

                                                                                                                                                                                                                                                                                                                                             2012q2

                                                                                                                                                                                                                                                                                                                                                       2012q4
                         0




                       0.2




                       0.4




                       0.6



                                                                                                                                                                                         Sample End Period

                                                                                                                                                                  Recursive                                                   Rolling40
                                                                                                                                                                  Rolling60




                        Figure 6b. Rolling and Recursive Analysis for Standard Nonprofit, ECM Version 1

                                                                                         Standard Mail Nonprofit Non-ECR, Own-Price Elasticities from Rolling and Recursive Samples
                                                                                                                          Error Correction Model

                       -0.6




                       -0.4
Long-Run Elasticity




                       -0.2
                                1997q4

                                           1998q2

                                                      1998q4

                                                                 1999q2

                                                                            1999q4

                                                                                        2000q2

                                                                                                   2000q4

                                                                                                              2001q2

                                                                                                                         2001q4

                                                                                                                                    2002q2

                                                                                                                                              2002q4

                                                                                                                                                        2003q2

                                                                                                                                                                  2003q4

                                                                                                                                                                             2004q2

                                                                                                                                                                                       2004q4

                                                                                                                                                                                                 2005q2

                                                                                                                                                                                                           2005q4

                                                                                                                                                                                                                     2006q2

                                                                                                                                                                                                                               2006q4

                                                                                                                                                                                                                                          2007q2

                                                                                                                                                                                                                                                    2007q4

                                                                                                                                                                                                                                                              2008q2

                                                                                                                                                                                                                                                                        2008q4

                                                                                                                                                                                                                                                                                  2009q2

                                                                                                                                                                                                                                                                                            2009q4

                                                                                                                                                                                                                                                                                                      2010q2

                                                                                                                                                                                                                                                                                                                2010q4

                                                                                                                                                                                                                                                                                                                          2011q2

                                                                                                                                                                                                                                                                                                                                    2011q4

                                                                                                                                                                                                                                                                                                                                              2012q2

                                                                                                                                                                                                                                                                                                                                                        2012q4




                          0




                        0.2




                        0.4




                        0.6



                                                                                                                                                                                           Sample End Period

                                                                                                                                                                          Recursive                                                    Rolling40
                                                                                                                                                                          Rolling60




                                                                                                                                                                                                                                                                                                                                                                 29
IV.B.4. Nonprofit Standard Mail ECR
Figures 7a and 7b show long-run elasticities from rolling and recursive analyses for Nonprofit
Standard Mail ECR. Like Nonprofit Regular, the rolling samples mostly produce smaller
elasticities than the longer recursive samples. The 40-quarter rolling samples from the baseline
model show highly variable own price elasticities in late 2001 and early 2002, but similar
volatility is not shown in the rolling samples from the ECM. The later rolling samples show some
convergence with the recursive estimates, particularly in the ECM implementation in Figure 7b.
The recursive elasticities are relatively stable, with evidence of a downward trend, though the
elasticities show relatively little decline in recursive samples ending in FY2003 or later.

       Figure 7a. Rolling and Recursive Analysis for Standard Nonprofit ECR, Modified Baseline
                                                                                          Standard Mail Nonprofit ECR, Own-Price Elasticities from Rolling and Recursive Samples
                                                                                                                         Modified USPS Baseline

                             -1.6


                             -1.4


                             -1.2


                              -1
       Long-Run Elasticity




                             -0.8


                             -0.6


                             -0.4
                                    1997q4

                                             1998q2

                                                      1998q4

                                                               1999q2

                                                                        1999q4

                                                                                 2000q2

                                                                                           2000q4

                                                                                                    2001q2

                                                                                                             2001q4

                                                                                                                      2002q2

                                                                                                                               2002q4

                                                                                                                                        2003q2

                                                                                                                                                 2003q4

                                                                                                                                                          2004q2

                                                                                                                                                                   2004q4

                                                                                                                                                                            2005q2

                                                                                                                                                                                       2005q4

                                                                                                                                                                                                2006q2

                                                                                                                                                                                                         2006q4

                                                                                                                                                                                                                  2007q2

                                                                                                                                                                                                                           2007q4

                                                                                                                                                                                                                                    2008q2

                                                                                                                                                                                                                                             2008q4

                                                                                                                                                                                                                                                      2009q2

                                                                                                                                                                                                                                                               2009q4

                                                                                                                                                                                                                                                                        2010q2

                                                                                                                                                                                                                                                                                 2010q4

                                                                                                                                                                                                                                                                                          2011q2

                                                                                                                                                                                                                                                                                                   2011q4

                                                                                                                                                                                                                                                                                                            2012q2

                                                                                                                                                                                                                                                                                                                     2012q4
                             -0.2


                               0


                             0.2


                             0.4


                             0.6



                                                                                                                                                                      Sample End Period

                                                                                                                                        Recursive                                    Rolling40                             Rolling60




                                                                                                                                                                                                                                                                                                                              30
                              Figure 7b. Rolling and Recursive Analysis for Standard Nonprofit ECR, ECM Version 1
                                                                                            Standard Mail Nonprofit ECR, Own-Price Elasticities from Rolling and Recursive Samples
                                                                                                                           Error Correction Model

                               -1.6


                               -1.4


                               -1.2


                                -1
        Long-Run Elasticity




                               -0.8


                               -0.6


                               -0.4
                                      1997q4

                                               1998q2

                                                        1998q4

                                                                 1999q2

                                                                          1999q4

                                                                                   2000q2

                                                                                             2000q4

                                                                                                      2001q2

                                                                                                               2001q4

                                                                                                                        2002q2

                                                                                                                                 2002q4

                                                                                                                                          2003q2

                                                                                                                                                    2003q4

                                                                                                                                                             2004q2

                                                                                                                                                                      2004q4

                                                                                                                                                                               2005q2

                                                                                                                                                                                        2005q4

                                                                                                                                                                                                 2006q2

                                                                                                                                                                                                          2006q4

                                                                                                                                                                                                                   2007q2

                                                                                                                                                                                                                             2007q4

                                                                                                                                                                                                                                      2008q2

                                                                                                                                                                                                                                               2008q4

                                                                                                                                                                                                                                                        2009q2

                                                                                                                                                                                                                                                                 2009q4

                                                                                                                                                                                                                                                                          2010q2

                                                                                                                                                                                                                                                                                   2010q4

                                                                                                                                                                                                                                                                                            2011q2

                                                                                                                                                                                                                                                                                                     2011q4

                                                                                                                                                                                                                                                                                                              2012q2

                                                                                                                                                                                                                                                                                                                       2012q4
                               -0.2


                                 0


                               0.2


                               0.4


                               0.6



                                                                                                                                                                          Sample End Period

                                                                                                                                                   Recursive                            Rolling40                           Rolling60




IV.B.5. Periodicals
Figures 8a and 8b show long-run elasticities from rolling and recursive analyses for Periodicals.
Since the full sample period is relatively short, we have relatively few replicate samples with the
60-quarter rolling window, though the exercise does extend over the Great Recession quarters.
The recursive elasticities show little variation, and while later recursive samples have slightly
larger elasticities in absolute value, demand for Periodicals is highly own price inelastic. The
rolling samples do not show a clear direction of divergence from the recursive samples, though
they are somewhat volatile. Like the Standard Mail Regular model, the Periodicals model
features a nonlinear intervention variable dated to FY2008 quarter 2, but not for the worsening
conditions in FY 2009. Rolling samples from 40-quarter windows do not show systematic
divergence from the recursive results; elasticities from 40-quarter rolling samples are more
variable in the baseline model than the ECM.




                                                                                                                                                                                                                                                                                                                                31
                                                                Long-Run Elasticity                                                                                                                                                                                                                              Long-Run Elasticity




                                         0.3
                                               0.2
                                                     0.1
                                                           0
                                                                        -0.1
                                                                                 -0.2
                                                                                        -0.3
                                                                                               -0.4
                                                                                                                                                                                                                                                                                          0.3
                                                                                                                                                                                                                                                                                                0.2
                                                                                                                                                                                                                                                                                                      0.1
                                                                                                                                                                                                                                                                                                            0
                                                                                                                                                                                                                                                                                                                         -0.1
                                                                                                                                                                                                                                                                                                                                  -0.2
                                                                                                                                                                                                                                                                                                                                         -0.3
                                                                                                                                                                                                                                                                                                                                                -0.4

                                                               2002q4                                                                                                                                                                                                                                           2002q4
                                                               2003q1                                                                                                                                                                                                                                           2003q1
                                                               2003q2                                                                                                                                                                                                                                           2003q2
                                                               2003q3                                                                                                                                                                                                                                           2003q3
                                                               2003q4                                                                                                                                                                                                                                           2003q4
                                                               2004q1                                                                                                                                                                                                                                           2004q1
                                                               2004q2                                                                                                                                                                                                                                           2004q2
                                                               2004q3                                                                                                                                                                                                                                           2004q3
                                                               2004q4                                                                                                                                                                                                                                           2004q4
                                                               2005q1                                                                                                                                                                                                                                           2005q1
                                                               2005q2                                                                                                                                                                                                                                           2005q2
                                                               2005q3                                                                                                                                                                                                                                           2005q3
                                                               2005q4                                                                                                                                                                                                                                           2005q4
                                                               2006q1                                                                                                                                                                                                                                           2006q1
                                                               2006q2                                                                                                                                                                                                                                           2006q2
                                                               2006q3                                                                                                                                                                                                                                           2006q3
                                                               2006q4                                                                                                                                                                                                                                           2006q4
                                                               2007q1                                                                                                                                                                                                                                           2007q1




                                                                                                                                                                                                                                                          Recursive
                                                               2007q2                                                                                                                                                                                                                                           2007q2




     Rolling60
     Recursive
                                                               2007q3                                                                                                                                                                                                                                           2007q3
                                                               2007q4                                                                                                                                                                                                                                           2007q4
                                                               2008q1                                                                                                                                                                                                                                           2008q1
                                                               2008q2                                                                                                                                                                                                                                           2008q2
                                                               2008q3                                                                                                                                                                                     Rolling40                                             2008q3
                                                                                                                                                                                                                                                                      Sample End Period




                     Sample End Period
                                                                                                                              Error Correction Model
                                                               2008q4                                                                                                                                                                                                                                           2008q4
                                                                                                                                                                                                                                                                                                                                                                              Modified USPS Baseline




                                                               2009q1                                                                                                                                                                                                                                           2009q1
                                                               2009q2                                                                                                                                                                                                                                           2009q2




         Rolling40
                                                               2009q3                                                                                                                                                                                                                                           2009q3
                                                               2009q4                                                                                                                                                                                                                                           2009q4
                                                               2010q1                                                                                                                                                                                                                                           2010q1
                                                                                                                                                                                                                                                          Rolling60




                                                               2010q2                                                                                                                                                                                                                                           2010q2
                                                               2010q3                                 Periodicals, Own-Price Elasticities from Rolling and Recursive Samples                                                                                                                                    2010q3
                                                                                                                                                                                                                                                                                                                                                       Periodicals, Own-Price Elasticities from Rolling and Recursive Samples




                                                               2010q4                                                                                                                                                                                                                                           2010q4
                                                               2011q1                                                                                                                                                                                                                                           2011q1
                                                               2011q2                                                                                                                                                                                                                                           2011q2
                                                               2011q3                                                                                                                                                                                                                                           2011q3
                                                               2011q4                                                                                                                                                                                                                                           2011q4
                                                                                                                                                                               Figure 8b. Rolling and Recursive Analysis for Periodicals, ECM Version 1




                                                               2012q1                                                                                                                                                                                                                                           2012q1
                                                                                                                                                                                                                                                                                                                                                                                                                                Figure 8a. Rolling and Recursive Analysis for Periodicals, Modified Baseline




                                                               2012q2                                                                                                                                                                                                                                           2012q2
                                                               2012q3                                                                                                                                                                                                                                           2012q3
                                                               2012q4                                                                                                                                                                                                                                           2012q4




32
IV.B.6. First-Class Single Piece Letters, Flats, and Parcels
Figures 9a and 9b show long-run elasticities from rolling and recursive analyses for First-Class
Single Piece Letters, Flats, and Parcels. There is little variation in the own price elasticities from
the recursive samples. The rolling samples generally track the recursive trend in the baseline
model. In Fig 9b, 60-quarter rolling samples using the ECM show the own price elasticity
declining to zero in rolling samples that incorporate data from the Great Recession. However,
we did not observe a similar trend in the recursive samples or 40-quarter rolling samples. Note
that while the USPS baseline model includes trend variables to allow for accelerating electronic
diversion of Single Piece First-Class Mail, it does not incorporate a Great Recession intervention
variable in the style of the Periodicals and most of the Standard Mail models.

                        Figure 9a. Rolling and Recursive Analysis for Single Piece First-Class Mail, Modified Baseline

                                                                                     First-Class Single Piece Letters, Own-Price Elasticities from Rolling and Recursive Samples
                                                                                                                        Modified USPS Baseline

                        -0.7


                        -0.6


                        -0.5


                        -0.4
  Long-Run Elasticity




                        -0.3


                        -0.2
                               1992q4
                                        1993q2
                                                 1993q4
                                                          1994q2
                                                                   1994q4
                                                                            1995q2
                                                                                     1995q4
                                                                                              1996q2
                                                                                                       1996q4
                                                                                                                1997q2
                                                                                                                         1997q4
                                                                                                                                  1998q2
                                                                                                                                           1998q4
                                                                                                                                                    1999q2
                                                                                                                                                             1999q4
                                                                                                                                                                      2000q2
                                                                                                                                                                               2000q4
                                                                                                                                                                                        2001q2
                                                                                                                                                                                                 2001q4
                                                                                                                                                                                                          2002q2
                                                                                                                                                                                                                   2002q4
                                                                                                                                                                                                                            2003q2
                                                                                                                                                                                                                                     2003q4
                                                                                                                                                                                                                                              2004q2
                                                                                                                                                                                                                                                       2004q4
                                                                                                                                                                                                                                                                2005q2
                                                                                                                                                                                                                                                                         2005q4
                                                                                                                                                                                                                                                                                  2006q2
                                                                                                                                                                                                                                                                                           2006q4
                                                                                                                                                                                                                                                                                                    2007q2
                                                                                                                                                                                                                                                                                                             2007q4
                                                                                                                                                                                                                                                                                                                      2008q2
                                                                                                                                                                                                                                                                                                                               2008q4
                                                                                                                                                                                                                                                                                                                                        2009q2
                                                                                                                                                                                                                                                                                                                                                 2009q4
                                                                                                                                                                                                                                                                                                                                                          2010q2
                                                                                                                                                                                                                                                                                                                                                                   2010q4
                                                                                                                                                                                                                                                                                                                                                                            2011q2
                                                                                                                                                                                                                                                                                                                                                                                     2011q4
                                                                                                                                                                                                                                                                                                                                                                                              2012q2
                                                                                                                                                                                                                                                                                                                                                                                                       2012q4
                        -0.1


                          0


                        0.1


                        0.2


                        0.3


                        0.4



                                                                                                                                                                                        Sample End Period

                                                                                                                                                        Recursive                                           Rolling40                                           Rolling60




                                                                                                                                                                                                                                                                                                                                                                                                                33
                          Figure 9b. Rolling and Recursive Analysis for Single Piece First-Class Mail, ECM Version 1

                                                                                              First-Class Single Piece Letters, Own-Price Elasticities from Rolling and Recursive Samples
                                                                                                                                 Error Correction Model

                        -0.7


                        -0.6


                        -0.5


                        -0.4
  Long-Run Elasticity




                        -0.3


                        -0.2
                               1992q4
                                        1993q2
                                                 1993q4
                                                          1994q2
                                                                   1994q4
                                                                            1995q2
                                                                                     1995q4
                                                                                               1996q2
                                                                                                        1996q4
                                                                                                                 1997q2
                                                                                                                          1997q4
                                                                                                                                   1998q2
                                                                                                                                            1998q4
                                                                                                                                                     1999q2
                                                                                                                                                              1999q4
                                                                                                                                                                       2000q2
                                                                                                                                                                                2000q4
                                                                                                                                                                                         2001q2
                                                                                                                                                                                                  2001q4
                                                                                                                                                                                                           2002q2
                                                                                                                                                                                                                    2002q4
                                                                                                                                                                                                                              2003q2
                                                                                                                                                                                                                                       2003q4
                                                                                                                                                                                                                                                2004q2
                                                                                                                                                                                                                                                         2004q4
                                                                                                                                                                                                                                                                  2005q2
                                                                                                                                                                                                                                                                           2005q4
                                                                                                                                                                                                                                                                                    2006q2
                                                                                                                                                                                                                                                                                             2006q4
                                                                                                                                                                                                                                                                                                      2007q2
                                                                                                                                                                                                                                                                                                               2007q4
                                                                                                                                                                                                                                                                                                                        2008q2
                                                                                                                                                                                                                                                                                                                                 2008q4
                                                                                                                                                                                                                                                                                                                                          2009q2
                                                                                                                                                                                                                                                                                                                                                   2009q4
                                                                                                                                                                                                                                                                                                                                                            2010q2
                                                                                                                                                                                                                                                                                                                                                                     2010q4
                                                                                                                                                                                                                                                                                                                                                                              2011q2
                                                                                                                                                                                                                                                                                                                                                                                       2011q4
                                                                                                                                                                                                                                                                                                                                                                                                2012q2
                                                                                                                                                                                                                                                                                                                                                                                                         2012q4
                        -0.1


                          0


                        0.1


                        0.2


                        0.3


                        0.4



                                                                                                                                                                                                           Sample End Period


                                                                                                                                                                       Recursive                                             Rolling40                                     Rolling60




IV.B.7. First-Class Workshared Letters, Flats, and Parcels
Figures 10a and 10b show long-run elasticities from rolling and recursive analyses for First-Class
Workshared Letters, Flats, and Parcels. Since the USPS baseline sample period is relatively
short, we estimated the rolling regressions using only a 40-quarter window. The recursive
elasticities are, as with other products, quite stable over successive samples, though the results
for later recursive samples using the ECM show slight trends towards increasing elasticities.
However, CUSUM tests do not indicate a significant structural break. The shorter rolling
samples roughly track the recursive results for the USPS baseline model, though the samples
ending in FY2012 show volatile results. The rolling samples for the ECMs mostly produce
smaller elasticities than the recursive samples, and are volatile for samples ending in FY2012. As
with First-Class Single Piece Letters, the First-Class Workshared Letters baseline model does not
contain an intervention variable to account for effects of the Great Recession on volume.




                                                                                                                                                                                                                                                                                                                                                                                                                  34
Figure 10a. Rolling and Recursive Analysis for Workshared First-Class, Modified Baseline
                                                 First-Class Workshared Letters, Own-Price Elasticities from Rolling and Recursive Samples
                                                                                  Modified USPS Baseline

                        -0.6


                        -0.5


                        -0.4
 Long-Run Elasticity




                        -0.3


                        -0.2


                        -0.1
                               2003q4



                                        2004q2



                                                 2004q4



                                                           2005q2



                                                                     2005q4



                                                                              2006q2



                                                                                       2006q4



                                                                                                2007q2



                                                                                                             2007q4



                                                                                                                          2008q2



                                                                                                                                    2008q4



                                                                                                                                              2009q2



                                                                                                                                                           2009q4



                                                                                                                                                                     2010q2



                                                                                                                                                                               2010q4



                                                                                                                                                                                         2011q2



                                                                                                                                                                                                    2011q4



                                                                                                                                                                                                               2012q2



                                                                                                                                                                                                                          2012q4
                          0


                         0.1


                         0.2


                         0.3


                         0.4



                                                                                                                       Sample End Period

                                                                                                          Rolling40                                     Recursive




                       Figure 10b. Rolling and Recursive Analysis for Workshared First-Class, ECM Version 1

                                                          First-Class Workshared Letters, Own-Price Elasticities from Rolling and Recursive Samples
                                                                                           Error Correction Model

                        -0.6


                        -0.5


                        -0.4
Long-Run Elasticity




                        -0.3


                        -0.2


                        -0.1
                               2003q4



                                        2004q2



                                                 2004q4



                                                            2005q2



                                                                     2005q4



                                                                              2006q2



                                                                                       2006q4



                                                                                                 2007q2



                                                                                                              2007q4



                                                                                                                           2008q2



                                                                                                                                     2008q4



                                                                                                                                               2009q2



                                                                                                                                                            2009q4



                                                                                                                                                                      2010q2



                                                                                                                                                                                2010q4



                                                                                                                                                                                           2011q2



                                                                                                                                                                                                      2011q4



                                                                                                                                                                                                                 2012q2



                                                                                                                                                                                                                            2012q4




                          0


                         0.1


                         0.2


                         0.3


                         0.4



                                                                                                                       Sample End Period


                                                                                                          Rolling40                                Recursive




                                                                                                                                                                                                                                     35
IV.B.8. First-Class Single Piece Cards
Figures 11a and 11b show long-run elasticities from rolling and recursive analyses for First-Class
Single Piece Cards. The USPS baseline model has recursive elasticities mostly in a narrow band
around zero. The recursive elasticities from the ECM in Fig. 11b show negative elasticities
gradually changing from about -0.4 to -0.2, with steps in FY2004 quarter 3 and FY2006 quarter
3. However, the recent rolling samples in Fig. 11b diverged from the recursive samples and
show near zero elasticities. The separate Single Piece Cards demand equation was dropped in
the Postal Service’s January 2013 demand model filing

                        Figure 11a. Rolling and Recursive Analysis for Single Piece First-Class Cards, Modified Baseline

                                                                    First-Class Single Piece Cards, Own-Price Elasticities from Rolling and Recursive Samples
                                                                                                     Modified USPS Baseline

                         -1.4


                         -1.2


                          -1


                         -0.8
  Long-Run Elasticity




                         -0.6


                         -0.4
                                1998q4

                                         1999q2

                                                  1999q4

                                                           2000q2

                                                                     2000q4

                                                                              2001q2

                                                                                       2001q4

                                                                                                2002q2

                                                                                                         2002q4

                                                                                                                  2003q2

                                                                                                                           2003q4

                                                                                                                                    2004q2

                                                                                                                                             2004q4

                                                                                                                                                      2005q2

                                                                                                                                                               2005q4

                                                                                                                                                                        2006q2

                                                                                                                                                                                 2006q4

                                                                                                                                                                                          2007q2

                                                                                                                                                                                                     2007q4

                                                                                                                                                                                                              2008q2

                                                                                                                                                                                                                       2008q4

                                                                                                                                                                                                                                2009q2

                                                                                                                                                                                                                                         2009q4

                                                                                                                                                                                                                                                  2010q2

                                                                                                                                                                                                                                                           2010q4

                                                                                                                                                                                                                                                                    2011q2

                                                                                                                                                                                                                                                                             2011q4

                                                                                                                                                                                                                                                                                      2012q2

                                                                                                                                                                                                                                                                                               2012q4
                         -0.2


                           0


                         0.2


                         0.4


                         0.6


                         0.8


                           1



                                                                                                                                                           Sample End Period


                                                                                                                                             Recursive                                             Rolling40
                                                                                                                                             Rolling60




                                                                                                                                                                                                                                                                                                        36
                        Figure 11b. Rolling and Recursive Analysis for Single Piece First-Class Cards, ECM Version 1

                                                                            First-Class Single Piece Cards, Own-Price Elasticities from Rolling and Recursive Samples
                                                                                                             Error Correction Model

                        -1.4


                        -1.2


                         -1


                        -0.8
  Long-Run Elasticity




                        -0.6


                        -0.4
                               1998q4

                                        1999q2

                                                 1999q4

                                                          2000q2

                                                                   2000q4

                                                                              2001q2

                                                                                       2001q4

                                                                                                2002q2

                                                                                                         2002q4

                                                                                                                  2003q2

                                                                                                                           2003q4

                                                                                                                                      2004q2

                                                                                                                                               2004q4

                                                                                                                                                        2005q2

                                                                                                                                                                 2005q4

                                                                                                                                                                            2006q2

                                                                                                                                                                                     2006q4

                                                                                                                                                                                              2007q2

                                                                                                                                                                                                       2007q4

                                                                                                                                                                                                                2008q2

                                                                                                                                                                                                                         2008q4

                                                                                                                                                                                                                                  2009q2

                                                                                                                                                                                                                                           2009q4

                                                                                                                                                                                                                                                    2010q2

                                                                                                                                                                                                                                                             2010q4

                                                                                                                                                                                                                                                                      2011q2

                                                                                                                                                                                                                                                                               2011q4

                                                                                                                                                                                                                                                                                        2012q2

                                                                                                                                                                                                                                                                                                 2012q4
                        -0.2


                          0


                        0.2


                        0.4


                        0.6


                        0.8


                          1



                                                                                                                                                             Sample End Period


                                                                                                                                    Recursive                             Rolling40                     Rolling60




IV.B.9. First-Class Workshared Cards
Figures 12a and 12b show long-run elasticities from rolling and recursive analyses for First-Class
Workshared Cards. We used a shorter estimation window, since the full sample period from the
USPS baseline model uses fewer than 60 quarters of data. The 40-quarter window provides a
limited trend showing the effects of adding relatively recent data to the regression samples.
Some rolling samples show larger elasticities than the recursive samples, but the samples
including FY2012 data yield volatile results. The ECM shows increasing elasticities in for
recursive samples as FY2011 and FY2012 data are added, though the results from rolling
samples shift in the opposite direction. The separate Workshared Cards demand equation was
dropped in the Postal Service’s January 2013 demand model filing.




                                                                                                                                                                                                                                                                                                          37
Figure 12a. Rolling and Recursive Analysis for Workshared First-Class Cards, Modified Baseline
                                                      First-Class Workshared Cards, Own-Price Elasticities from Rolling and Recursive Samples
                                                                                     Modified USPS Baseline

                         -1.2


                          -1


                         -0.8


                         -0.6
   Long-Run Elasticity




                         -0.4
                                2009q4




                                         2010q1




                                                    2010q2




                                                              2010q3




                                                                        2010q4




                                                                                     2011q1




                                                                                                  2011q2




                                                                                                             2011q3




                                                                                                                              2011q4




                                                                                                                                        2012q1




                                                                                                                                                  2012q2




                                                                                                                                                             2012q3




                                                                                                                                                                        2012q4
                         -0.2


                           0


                         0.2


                         0.4


                         0.6


                         0.8


                           1



                                                                                               Sample End Period


                                                                                 Rolling40                             Recursive




 Figure 12b. Rolling and Recursive Analysis for Workshared First-Class Cards, ECM Version 1

                                                  First-Class Workshared Cards, Own-Price Elasticities from Rolling and Recursive Samples
                                                                                 Error Correction Model

                         -1.2


                          -1


                         -0.8


                         -0.6
  Long-Run Elasticity




                         -0.4
                                2009q4




                                         2010q1




                                                    2010q2




                                                              2010q3




                                                                        2010q4




                                                                                      2011q1




                                                                                                   2011q2




                                                                                                              2011q3




                                                                                                                               2011q4




                                                                                                                                         2012q1




                                                                                                                                                    2012q2




                                                                                                                                                               2012q3




                                                                                                                                                                          2012q4




                         -0.2


                           0


                         0.2


                         0.4


                         0.6


                         0.8


                           1



                                                                                               Sample End Period


                                                                                 Rolling40                               Recursive




                                                                                                                                                                                   38
IV.C. Dummy Variable Interaction Models
The effects of explanatory variables in regression models can be allowed to vary, while
remaining within the standard regression framework, by specifying some of the regressors as
interaction variables. Consider a dummy variable Dt defined so that Dt =1 for t ≥T* and Dt =0
otherwise, and the interaction variable 𝑃𝑡∗ = 𝐷𝑡 × ln 𝑃𝑡 . Including 𝑃𝑡∗ in the baseline regression
model gives (for instance):

       ln 𝑉𝑡 = 𝛼0 + ⋯ + ∑4𝑖=0 𝛽𝑖 ln 𝑃𝑡−𝑖 + 𝛽 ∗ 𝑃𝑡∗ + 𝛼 ′ 𝑍𝑡 + 𝑒𝑡 .

In this model, the elasticity of demand with respect to the current-period price is 𝛽0 for t<T*
and 𝛽0 + 𝛽 ∗ for t ≥ T*. A version of the constant-elasticity hypothesis can be tested by testing
whether 𝛽 ∗ = 0. An advantage of this method, compared to the rolling parameter analysis on a
constant-elasticity model, is that it can potentially detect breaks for values of T* that may be
much closer to the end of the available data than the shortest practical rolling window.

By defining other interaction variables, it is possible for the elasticities to have multiple
structural breaks, be parametric functions of time, or depend on the values of other variables.
Ultimately, the interaction exercise is limited by the available observations and the underlying
variability of the data.

For the analysis of the demand models, the distributed-lag specification of prices in the USPS
baseline model gives dummy variable interactions model essentially the same estimation
problem caused by prices being highly correlated with their lags as in the original model. That
is, we would expect unconstrained estimates of the interaction effects to be highly volatile. In
principle, interactions should be introduced for the current and lagged prices, to allow all of the
component coefficients of the long run elasticity to shift, so the model becomes:

       ln 𝑉𝑡 = 𝛼0 + ⋯ + ∑4𝑖=0 𝛽𝑖 ln 𝑃𝑡−𝑖 + ∑4𝑖=0 𝛽𝑖∗ 𝑃𝑡−𝑖
                                                      ∗
                                                          + 𝛼 ′ 𝑍𝑡 + 𝑒𝑡 .

If ln Pt and its lags are highly collinear, then we would expect 𝑃𝑡∗ and its lags to be collinear as
well, and thus we would have difficulty obtaining precise estimates of all of the 𝛽𝑖∗ coefficients.
To mitigate the multicollinearity problem, we imposed restrictions so that the interaction
coefficients represent a common shift of the PDL coefficients, so that the 𝛽𝑖∗ coefficients are the
same for all i:

       ln 𝑉𝑡 = 𝛼0 + ⋯ + ∑4𝑖=0 𝛽𝑖 ln 𝑃𝑡−𝑖 + ∑4𝑖=0 𝛽 ∗ 𝑃𝑡−𝑖
                                                      ∗
                                                          + 𝛼 ′ 𝑍𝑡 + 𝑒𝑡 .

We investigated three breakpoints with the dummy variable analysis: the first quarters of fiscal
years 2008, 2009, and 2010. The FY2008 quarter 1 breakpoint includes the December, 2007
NBER date for the start of the Great Recession. FY2009 quarter 1 includes months, notably
October, 2008, of severe financial market disruptions. The latest breakpoint was intended to
reflect possible later decoupling of Postal Service demand recovery from the general economic




                                                                                                 39
recovery. We implemented dummy variable interactions in the modified USPS baseline and the
ECM models. In the ECM, we specified the interaction to allow a shift in the long-run elasticity.

Based on the rolling and recursive coefficient analyses, we would not expect to see structural
breaks resulting in significantly higher own price elasticities in recent years. The dummy
variable model results in Table 5a and 5b, below, confirm that the elasticities are little changed
across breakpoints covering the Great Recession. We found that the interactions produced
unusually large shifts in the elasticities in models where the interaction timing closely coincided
with nonlinear intervention variables specified to capture recession effects. Thus, we do not
report post-breakpoint elasticities for certain breakpoints.30 Otherwise, we found that the
standard errors of the shift coefficients 𝛽 ∗ were relatively small—on the order of a few
percentage points or less—so if there were large, systematic shifts in the elasticities, the
models would appear to have been able to resolve any such shifts.

                             Table 5. Results from Dummy Variable Interaction Models
 a. Modified USPS Baseline Model
                                                                          Long-Run Own Price Elasticities
                                                                                   Breakpoint
               Product                            Period            FY2008Q1       FY2009Q1         FY2010Q1
           Standard Regular                No Break - Full Sample                    -0.354
                                            Before Breakpoint         -0.343         -0.347           -0.343
                                             After Breakpoint            *           -0.346           -0.333
                                                Difference               *           0.001             0.010
             Standard ECR                  No Break - Full Sample                    -0.780
                                            Before Breakpoint         -0.814         -0.768           -0.777
                                             After Breakpoint         -0.804         -0.774           -0.773
                                                Difference            0.010          -0.005            0.005
          Standard Nonprofit               No Break - Full Sample                    -0.289
                                            Before Breakpoint         -0.274         -0.322           -0.350
                                             After Breakpoint         -0.294            *             -0.390
                                                Difference            -0.020            *             -0.040
        Standard Nonprofit ECR             No Break - Full Sample                    -0.617
                                            Before Breakpoint         -0.634         -0.636           -0.611
                                             After Breakpoint            *           -0.551           -0.616
                                                Difference               *           0.085            -0.005
               Periodicals                 No Break - Full Sample                    -0.071
                                            Before Breakpoint         -0.103         -0.066           -0.095
                                             After Breakpoint            *           -0.086           -0.092
                                                Difference               *           -0.020            0.004
      First-Class Single Piece Cards       No Break - Full Sample                    0.013
                                            Before Breakpoint         0.007          0.011            -0.012
                                             After Breakpoint         0.022          0.001            -0.022
                                                Difference            0.015          -0.010           -0.010
      First-Class Workshared Cards         No Break - Full Sample                    -0.383
                                            Before Breakpoint         -0.547         -0.255           -0.459
                                             After Breakpoint         -0.537         -0.335           -0.449
                                                Difference            0.010          -0.080            0.010

30
  The FY2008 quarter 1 breakpoints are affected for Standard Regular, Standard Nonprofit ECR, and Periodicals,
which incorporate interventions at FY2008 quarter 2; Standard Nonprofit (non-ECR) has a FY2009 intervention
variable, affecting the FY2009 quarter 1 breakpoint.


                                                                                                                 40
      First-Class Single Piece Letters        No Break - Full Sample                          -0.275
                                               Before Breakpoint             -0.324           -0.344          -0.358
                                                After Breakpoint             -0.314           -0.359          -0.348
                                                   Difference                0.010            -0.015          0.010
      First-Class Workshared Letters          No Break - Full Sample                          -0.446
                                               Before Breakpoint             -0.442           -0.447          -0.455
                                                After Breakpoint             -0.445           -0.462          -0.452
                                                   Difference                -0.002           -0.015          0.003

 b. Error Correction Model
                                                                                    Long-Run Own Price Elasticities
                                                                                             Breakpoint
                   Product                             Period               FY2008Q1         FY2009Q1         FY2010Q1
              Standard Regular                 No Break - Full Sample                          -0.312
                                                 Before Breakpoint             -0.308          -0.342            -0.312
                                                  After Breakpoint                *            -0.308            -0.313
                                                     Difference                   *            0.034             -0.001
                Standard ECR                   No Break - Full Sample                          -0.549
                                                 Before Breakpoint             -0.556          -0.543            -0.548
                                                  After Breakpoint             -0.549          -0.545            -0.551
                                                     Difference                0.007           -0.002            -0.004
             Standard Nonprofit                No Break - Full Sample                          -0.180
                                                 Before Breakpoint             -0.169          -0.189            -0.192
                                                  After Breakpoint             -0.185             *              -0.207
                                                     Difference                -0.016             *              -0.015
          Standard Nonprofit ECR               No Break - Full Sample                          -0.589
                                                 Before Breakpoint             -0.574          -0.617            -0.589
                                                  After Breakpoint                *            -0.537            -0.589
                                                     Difference                   *            0.079             0.000
                 Periodicals                   No Break - Full Sample                          -0.114
                                                 Before Breakpoint             -0.104          -0.119            -0.115
                                                  After Breakpoint                *            -0.115            -0.116
                                                     Difference                   *            0.003             -0.001
       First-Class Single Piece Cards          No Break - Full Sample                          -0.179
                                                 Before Breakpoint             -0.187          -0.212            -0.185
                                                  After Breakpoint             -0.181          -0.196            -0.180
                                                     Difference                0.006           0.016             0.005
       First-Class Workshared Cards            No Break - Full Sample                          -0.683
                                                 Before Breakpoint             -0.544          -0.484            -0.680
                                                  After Breakpoint             -0.568          -0.521            -0.681
                                                     Difference                -0.023          -0.038            -0.001
      First-Class Single Piece Letters         No Break - Full Sample                          -0.144
                                                 Before Breakpoint             -0.146          -0.161            -0.154
                                                  After Breakpoint             -0.142          -0.182            -0.138
                                                     Difference                0.004           -0.021            0.016
      First-Class Workshared Letters           No Break - Full Sample                          -0.393
                                                 Before Breakpoint             -0.379          -0.408            -0.392
                                                  After Breakpoint             -0.373          -0.419            -0.395
                                                     Difference                0.005           -0.010            -0.003
* Not estimated due to conflict with intervention variable in baseline model; see text.




                                                                                                                          41
V. CONCLUSIONS

The significant volume losses of recent years have, understandably, led observers to consider a
broad range of potential factors that may account for the declines, including increasing price
sensitivity of mailers. Real U.S. postal rates have shown very little variation in recent years, and
cannot themselves be a major factor of volume losses, compared to modal competition and
recessionary drops in economic activity drivers. Nevertheless, it is possible that U.S. demands
for postal services could have become more own price elastic with significant implications for
pricing policies. The relatively long time periods needed for the estimation samples of the
demand models, combined with constant elasticity assumptions in the log-linear demand
equations, could in theory have attenuated changes in the own price elasticities.

We tested the stability of the Postal Service’s demand models for market dominant products
both by varying the regression sample periods and by investigating whether there is evidence
for recent structural breaks in the elasticity estimates. We found some technical deficiencies in
the Postal Service’s baseline models related to time series properties of the volume and
economic activity variables, and possibly also the price indexes. We recommend that the Postal
Service’s analysts address these issues in future demand model updates.

We find no evidence that the Postal Service’s demand models are systematically understating
own price elasticities of demand for the market dominant products we studied. Indeed, to the
extent the analysis shows own price elasticities to be “in flux,” the changes are predominantly
in the direction of lower own price elasticities. Additionally, the data do not suggest that the
inclusion of older observations in the demand regressions result in smaller elasticity estimates.
The overall picture is that while demands for market dominant postal products have shifted
substantially due to a combination of factors other than postal prices, they remain own price
inelastic.




                                                                                                  42
APPENDIX A: PRICE ELASTICITY AND THE ECONOMIC STRUCTURE OF POSTAL DEMANDS

A.1. Pricing and the Importance of the Elasticity of Demand
The price elasticity of demand (εd ), a concept that measures consumers’ responsiveness to a
change in the price of a good, is defined as the percentage change in quantity demanded (Qd )
resulting from a one percent change in price (P). That is,

     (A.1)        εd = %∆Qd / %∆P = (∆Qd /∆P) (P/Qd ) ≤ 0.

From a seller’s point of view, the price elasticity of demand for that seller’s product is important
information in the determination of price. The seller has less pricing power as demand for its
product becomes more elastic. However, the impact on total revenue depends on the price
elasticity of demand. Raising price would increase total revenue if demand is inelastic, but
lower revenue if demand is elastic. Raising price also reduces total cost because of lower
production.

When demand is inelastic the seller can always increase profit by raising price -- total revenues
would go up and total costs would go down, each effect contributing to the profit increase.
However the case is not so clear when demand is elastic. A price decrease would increase
revenue but also increase total cost as more output is produced and sold. Alternatively, with
elastic demand, a price increase decreases both revenue and cost. Thus, in the case of elastic
demand, the impact on profit from a price change depends on how the revenue and cost
impacts net out.

What we can conclude is that a profit-maximizing firm will operate in the elastic region of
demand (again, the demand for its product) at a price point where any extra revenue that could
be generated by lowering price would be just offset by the extra cost incurred. 31 This is the
familiar profit-maximization condition that “marginal revenue equals marginal cost.”

Marginal revenue (MR) is the change in total revenue resulting from changing the quantity sold
by one unit. As the discussion above suggests, marginal revenue is related to the elasticity of
demand measure. That is, 32

     (A2)         MR = P∙ (1 + 1/ εd )

Profit-maximization requires that marginal revenue equals marginal cost,

     (A3)         MR = MC.



31
   This is also the point where the incremental revenue lost from raising price would be just offset by the reduction
in cost.
   MR = ∆TR /∆Qd = ∆(P∙Qd) /∆Qd) = P∙ (∆Qd /∆Qd) + Qd ∙(∆P /∆Qd) = P (1 + (∆P /∆Qd)∙( Qd/P) = P∙ (1 + 1/ εd )
32




                                                                                                                  43
Substituting (A3) into (A2) and rearranging gives the profit-maximizing markup equation

     (A4)         (P – MC) / P = -1/ εd

which is also known as the Lerner Index of Market Power. 33 This measure shows that a firm’s
ability to price above cost is inversely related to the elasticity of demand for its product. 34

In the case where marginal cost is a constant, marginal cost and average variable cost are the
same and multiplying the left-hand side of (A4) by Q/Q (=1) gives

     (A5)         Contribution/Revenue ≡ (TR – TVC)/TR = -1/εd.

That is, the inverse of the price elasticity of demand for the seller’s product indicates the
seller’s ability to generate contribution as a share of revenue (or, equivalently, per unit margin
as a share of price). If there is no fixed cost, then total variable cost is total cost and
contribution is profit.

For a firm selling multiple products and/or in multiple markets, where the products have
independent demands and independent marginal costs, 35 (A5) shows that each product’s ability
to contribute a share of its revenues toward fixed cost recovery is inversely related to the price
elasticity of demand for that product.36

In summary, the price elasticity of demand indicates a firm’s pricing power for a particular
product and that product’s ability to generate profit or contribute to fixed cost recovery.

A.2. Determinants of the Price Elasticities of Household Demand
A change in price of a household good or service has two distinct effects on consumer demand.
The substitution effect involves using more of a good whose relative price has decreased and
less of a good whose relative price has increased. The extent to which substitution is possible is
determined by the ability of one good to replace another good in terms of generating consumer
satisfaction. When the price of a good increases, other things the same, the relative price of all
other goods decrease and the consumer will use less of the good whose price increased and


33
   Lerner, A. P. (1934). "The Concept of Monopoly and the Measurement of Monopoly Power". The Review of
Economic Studies 1 (3): 157–175.
34
   This result has been derived for the single-product profit-maximizing firm. A similar result can be derived for a
multi-product not-for-profit firm with fixed costs. Also, closely related is the derivation of Ramsey pricing rules in
which second-best efficient fixed cost recovery is achieved through greater price markups in markets with less
elastic demand.
35
   Independent demands means that the products are neither substitutes nor complements in consumption – the
cross-price elasticities of demand are all zero. Independent marginal costs means that the products are neither
substitutes nor complements in production – the cross-price elasticities of supply are all zero.
36
   The mathematics are more complicated when demands are not independent. In that case, pricing power is
inversely related to a “superelasticity of demand” involving the own- and the cross-price elasticities of demand.


                                                                                                                    44
more of the other goods. Conversely, when the price of a good decreases, consumers will try to
substitute it for other goods.

The other effect of a price change is the income effect. As the price of a good goes up, the
household has less purchasing power for the same budget. Consequently, to remain within its
budget constraint a household has to reduce purchases overall. In most cases this means
purchasing less of the good. When the price of a good decreases, the household has more
purchasing power, and can increase the consumption of some or all goods while remaining on
budget. Again, in most cases this means purchasing more of the good. 37

We can now identify and discuss some basic determinants of the household’s elasticity of
demand for a good.

A.2.a. Substitutes
Demand for a good is more elastic when it is feasible to substitute another good than when it is
infeasible. Feasibility of substitution has two conditions. The first condition is technical
substitution possibility. That is, can the same satisfaction be generated using the alternative
good? The greater the degree of technical substitution of other goods, the more elastic the
demand for the good in question.

The second condition is availability of the substitute goods. Can the alternative readily be
purchased? This condition relates to the price elasticity of supply of the alternative good. The
more elastic the supply of a substitute good, the more elastic the demand for the good in
question.

The demand for a good broadly defined (such as transportation) is less elastic than the demand
for a more specific market (such as a particular car make and model). That is because there are
few, if any, substitutes for the broadly defined good and more substitutes for the specific good.
In the example of transportation goods, the possible substitutes for transportation are limited
(walk, bus, taxi, etc.) and imperfect, while there is plethora of close substitutes for a particular
model of car from a particular car dealer.


A.2.b. Necessity
The more essential a good is, the less elastic the demand for the good. The necessity of a
generic good is reinforced by the absence of feasible substitutes.

Historically, postal services have been essential to long distance communication and transport
of correspondence. Even though the demand for communication services seems to be always
increasing, the development of telephones and subsequent methods of electronic

37
  A good is a “normal good” if an increase in incomes results in the consumer purchasing more of that good. A
good is an “inferior good” if an increase in income results in the consumer buying less of the good. The income
effect reinforces the substitution effect for a normal good and opposes the substitution effect for an inferior good.


                                                                                                                  45
communications has made postal services per se less essential. Thus, the demand for postal
services has been relatively inelastic, but may be becoming more elastic as the essentiality of
the services decreases.

A.2.c. Importance in the Household Budget
The larger the share of the household budget allocated to purchase of a good, the more
sensitive the consumer is to price. This is because it is worth the effort for the consumer to
search out substitution alternatives for these big purchases while it might not be so for
purchases that are a very small share of the budget. Also, when the purchases of the good
comprise a larger share of the budget, the impact of the income effect from a price change can
be substantial.

Purchases of postal services have never been a large share of household expenses.
Consequently, the demand for these services by households has been relatively inelastic.

A.3.d. Consumer Loyalty and Product Differentiation:
Brand recognition and consumer loyalty to the brand leads to less elastic demand for a good.
Advertising by a firm attempts to increase the demand for its product as well as make that
demand less elastic.

In the postal service context, customer loyalty and product differentiation probably make the
demand less elastic for final consumption goods (e.g., a personal letter) but not for
intermediate goods which are perceived as commodity inputs.

A.3.e. Time:
Demand is more elastic in the longer run than in the short run. When the price of a good
changes, consumers might not be able to immediately search for substitutes and necessity
might require keeping purchases largely unchanged. However, with time, the consumer can
identify some substitution possibilities that mitigate the impact of a price increase or find
additional consumption opportunities in the case of a price decrease. Also, in the very long run,
if the price change is viewed as permanent, new products and technologies might be
developed.

A.3. Determinants of the Price Elasticities of Business Demand
A change in the price of an input has two distinct impacts on a business’ demand for that input.
As with household demand, there is a substitution effect. However, the demand for production
inputs by businesses differs from the demand for goods by households because there is no
income constraint. Consequently, there is no corresponding income effect as the result of a
change in the price of an input. The second effect of a price change on a business’ demand for
an input is the scale effect.




                                                                                                  46
The substitution effect reflects that the firm can change its mix of inputs to produce a given
level of output. As the price of an input increases, the firm, in its effort to minimize cost, 38 will
substitute other inputs. Conversely, a price decrease for an input will cause the firm to use
more of that input and less of other inputs for a given level of production. The extent to which
substitution in production can occur is determined by technology.

The second impact from a change in the price of an input is the scale effect. The scale effect
(also called the expansion effect), takes into account that by changing the firm’s cost
(particularly marginal cost), the change in an input price changes the optimal output of the firm.
Typically, an increase in the price of an input will shift up (increase) the firm’s marginal cost.39
This results in the profit maximizing output (determined by the equation of marginal revenue
and marginal cost) now being less. Conversely, an input price decrease leads to an expansion of
output by the firm. If the input price change impacts all firms in the final product industry and
the industry is competitive, then the scale effect is enhanced as the industry adjusts to a new
equilibrium. That is, an input price increase would result in an initial contraction in output by
each firm. However, the increased cost reduces profits and over time leads some firms to exit
the industry, further decreasing employment of the input. Conversely, an input price decrease
ultimately leads to competitive entry and increasing use of the input.

Marshall, in his development of the theory of derived demand, examined the factors on which
the elasticity of derived demand depends. 40 Marshall identified four conditions, now known as
“Marshall’s Rules,” affecting the elasticity of demand for labor. John Hicks undertook a more
rigorous mathematical derivation of Marshall’s Rules. 41 Although Marshall and Hicks focused
on demand for labor, with the interest being on the effects on the distribution of income
among the factors of production in the economy, the analysis is applicable at a more
microeconomic level and to any factor of production. Marshall’s Rules (in the order he
presented them) are that the demand for an input will be more elastic (1) the greater the ease
of technical substitution of other inputs in the production process; (2) the greater the elasticity
of demand for final output; (3) the greater the factor’s share of the production cost; and (4) the
greater the elasticity of supply of other inputs.

Rules (1) and (4) go directly to the substitution effect and are the business demand parallel to
the substitution determinant in the household demand discussion above. Because an input is
an intermediate good rather than a final good, the input is not a “necessity” in and of itself.
However, an input may be essential to the production of the final good. How essential an input
is depends on the technical substitution possible. The greater the ease of substitution of other
inputs, the less essential the input and therefore the greater the elasticity of demand for it.

38
   Cost minimization is a necessary condition for profit maximization. Cost minimization is also consistent with
several alternative objectives, such as sales maximization subject to breaking even.
39
   There is the theoretical possibility of an “inferior input” whose usage goes down as production increases, and as
a result, the marginal cost would decrease. Inferior inputs are atypical, if they exist at all. There is no reason to
think that postal services are inferior inputs.
40
   Marshall, Alfred (1948). Principles of Economics (Eighth Edition). New York: Macmillan pp. 383-386.
41
   Hicks, John R. (1964). Theory of Wages (Second Edition). London: Macmillan pp. 241-47.


                                                                                                                  47
Rule (4) regarding the elasticity of supply of other inputs holds in aggregate; however, for a
specific other input the conclusion presumes the other input is a production substitute rather
than complement.42

Rule (2) goes to the scale effect. As discussed above, an increase in the price of an input will
increase production cost and ultimately lead to an increase in the price of the final good as the
industry adjusts to a new equilibrium. The amount of the price increase depends on the extent
to which substitution can mitigate the cost increase. However, any cost increase will lead to an
increase in the price of the final good. At the higher price, consumers will purchase less which
means less will be produced and less of all inputs will employed. The extent of production and
employment cutback depends on the consumers’ sensitivity to price for the final good, that is,
the price elasticity of demand for final output.

Rule (3) is similar to the household demand being influenced by the importance in the budget.
However, Rule (3) is directly derived from the firm’s profit-maximizing (and also cost-
minimizing) behavior. Hicks challenged the importance of this rule. He demonstrated that this
condition depends on the balance between the ease of technical substitution and the elasticity
of demand for the final good. As long as the demand for the final good is fairly elastic while
factor substitution is relatively difficult, the rule holds. But, as Hicks showed mathematically,
the rule is reversed if technical substitution is easy and final demand is inelastic. He deftly
summarized the finding as “(I)t is ‘important to be unimportant’ only when the consumer can
substitute more easily than the entrepreneur.” 43

Rules (1) and (4) are the most relevant to possible changes in the price elasticity of demand for
postal services as an input in production. The development of the email, the Internet and other
means of electronic transmission of communication has resulted in the emergence of much
stronger substitutes to mail. Besides being feasible substitutes, technological change has made
the alternatives readily available (i.e., their supplies are elastic). Automatic electronic transfer
of funds and online bill payment have wrested away a majority of the bill payments from the
Postal Service. The Postal Service has, so far, managed to hold onto most of the bill
presentation market, but nevertheless lost a substantial share to electronic diversion. 44

To the extent that the Internet has increased business and consumer purchases of
merchandise, the demand for delivery of those purchases by U.S. mail may have increased. The
Postal Service continues to face competition for providing the delivery of merchandise, but
because of its extensive network, it appears to maintain a competitive advantage in last-mile
delivery.


42
   Not all inputs can be complements in production. In aggregate, other inputs have to be a substitute for the input
in question, with the limiting case being a production function characterized by fixed proportions among inputs
(i.e., no substitution possible).
43
   Hicks, John R. (1964). Theory of Wages (Second Edition). London: Macmillan pp. 245-46. (emphasis in original).
44
     See, e.g., 2011 USPS Household Diary Report. Table 4.10, p. 3.3; Table 4.13, p. 3.7.


                                                                                                                 48
A.4. All Other Things Aren’t the Same: How the Demand and the Elasticity of Demand for
Postal Services Might—Or Might Not—Be Changing
The discussion of the price elasticity demand concerns the response of buyers to price changes
and the general factors determining the degree of responsiveness. Most of the statements
about elasticity have a key phrase included either explicitly or implicitly. That phrase, a favorite
among economists, is “all other things the same.” But over long periods of time, all other things
don’t stay the same. Consequently, quantitative and qualitative conclusions about price
elasticities and the relative importance of their various determinants can change.

What are the other things relevant to the demand for postal services that might have changed?

A.4.a. Consumer Tastes and Preferences:
Economists generally think that consumers are fairly stable in terms of what generates utility or
satisfaction. However, consumers do like new products and the introduction of new products
causes reallocation of expenditures. Expanded choices usually mean increased substitution
possibilities.

A.4.b. Technology:
Technological improvements occur tend to occur regularly such that over time output is
produced more and more efficiently. Some of this process technical change reflects steady
continuous refinements in production and management methods. Breakthrough innovations,
such as the printing press, the steam engine, and electrification, dramatically increase a
society’s production possibilities. Technological progress might not impact all factors of
production the same. Much of the technological change since the industrial revolution has been
embodied in new capital and has resulted in less labor required per unit of output produced
and production occurring at a greater ratio of capital to labor. At a more microeconomic level, a
question can be asked as to the extent to which recent communication advances (e.g., the
Internet) are “mail-saving” technological changes. How technological change alters the
production function for a good directly impacts the input substitution possibilities and thereby
impacts the price elasticities of demand for the inputs.

Product innovation is another form of technological change. Product innovation is the
development and introduction of completely new products. New products used to produce
other goods feed into process technical change. New consumer goods present households with
more goods over which to allocate their budgets and add more consumption substitution
possibilities. Furthermore, the introduction of new final products may influence the evolution
of consumer tastes and preferences.

A.4.c. Availability of other goods and inputs:
A society’s production possibilities depend upon technology and the stock of inputs. Product
innovation can introduce goods and inputs that were not available before. Pure chance can lead
to the discovery of additional raw material resources. Process technical change may make
extraction of previously unavailable resources feasible. Changes in the amount of goods and


                                                                                                 49
inputs available can change the relative scarcity of goods and inputs, impacting the
consumption and production substitution feasibilities and thereby impacting the elasticities of
demand.

A.4.d. Macroeconomic variables:
Changes in macroeconomic variables can impact the demands and demand elasticities for
goods and inputs. These macroeconomic variables include population, consumer income, and
overall economic activity.

A.5. Conclusion
The elasticity of demand is a measure of how customers respond to a change in the price of a
good. Several factors affect the degree to which consumers respond. The price elasticity of
demand is important in pricing strategy because it indicates a firm’s pricing power for a
particular product and that product’s ability to generate profit or contribute to fixed cost
recovery.

The demand for postal services comes from households and from businesses. These sectors
have multiple needs to be met by the variety of postal services. As a result, the price elasticity
of demand differs, even within a firm or household, depending on the need underlying the
demand for a specific postal service.

It is apparent that the demand for postal services has decreased in recent years as more
electronic alternatives have become available. However, it is not certain how the market
downturn has changed the price elasticity of demand for the different postal services. Theory
suggests several effects, not all the same direction. As a result, how price elasticities have
changed is an empirical question. To let the data answer the question requires judicious
modeling. Specifically, it is necessary to recognize the distinct demands for different postal
services, to be able to distinguish between changes in demand and changes in price elasticity of
demand, and to allow flexibility in the elasticity measures to be estimated (i.e., don’t overly
restrict the elasticity prior to estimation).




                                                                                                 50
APPENDIX B: SUMMARY OF CRRI CONFERENCE PAPERS REVIEWED

B.1. Time Series Models
The CRRI conference papers using time series methods employ demand models with similar
economic content to the USPS baseline models, but differ notably in their use of time series
econometric models more suitable for analyzing “cointegrated” data. These include studies by
Veruete-McKay et al. (VM) 45 and Jarosik, Nankervis, Pope, Soteri, and Veruete-McKay (JNPSV) 46
of the UK; Martin, Paterson, Nikali, and Li (MPNL) 47 employ data from Finland.

The use of the ECM in both JNPSV and MPNL is motivated by cointegration of mail volumes and
macroeconomic demand drivers. However, the VM paper reports that UK letter prices deflated
by the retail price index (RPI) are stationary—the result is not unexpected in that a binding
postal price cap based on RPI (CPI in the US) would yield relatively constant “real” postal prices.

The MPNL paper uses annual data from 1990-2010. With relatively few observations in the
annual time series, MPNL specify relatively rudimentary estimating equations with explanatory
variables including own price, GDP per capita, an “electronification” measure, population
growth (described as a measure of short-run demand pressure), and a global financial crisis
dummy variable. They find that consumer-sent mail has highly inelastic demand, while
business-to-consumer and business-to-business invoices are nearly unit elastic. However, the
long-run own price elasticities for B2B and B2C invoice volumes are not very precisely
estimated.

JNPSV employ relatively long series of quarterly data and, similar to the USPS baseline models,
include a number of seasonal and trend variables in addition to own price and macroeconomic
activity measures. The JNPSV paper also includes some cross-price terms, allowing for postal
and (for presort and access volumes) nonpostal substitution possibilities. Conceptually similar
cross-price and price differential (discount) terms are not currently specified in the USPS
baseline models, but have been incorporated in the past—e.g., a number of price differentials
were included in the demand models presented in the R2006-1 rate case. Finally, the JNPSV
paper includes annual relative price terms in the equations for Second Class and presort/access
volumes, to allow for “increasing levels of competition” in the sense of increased sensitivity of
volume to product price differentials. In principle, similar interaction terms could be employed
to test the stability of own price effects.



45
   Leticia Veruete-McKay, Soterios Soteri, John Nankervis, and Frank Rodriguez, “Letter Traffic Demand in the UK:
An Analysis by Product and Envelope Content Type,” Review of Network Economics, Vol. 10(3), September 2011.
46
   Marzena Jarosik, John Nankervis, Jonathan Pope, Soterios Soteri, and Leticia Veruete-McKay, “Letter Traffic
Demand in the UK: Some New Evidence and Review of Econometric Analysis over the Past Decade.” Paper
presented at the CRRI 20th Conference on Postal & Delivery Economics, Brighton, England, 2012.
47
   Vance L. Martin, Chris J. Paterson, Heikki Nikali, and Qiubang Li, “Dynamic Letter Volume Models: How Does an
Economic Downturn Affect Substitutuion Propensities.” Paper presented at the CRRI 20th Conference on Postal &
Delivery Economics, Brighton, England, 2012.


                                                                                                               51
In addition to the empirical papers, we reviewed a theoretical and simulation-based paper by
Fève, Florens, Soteri, and Veruete-McKay 48 examining a model of mail demand under changes
in the composition of the postal customer base to include customers with access to electronic
communication alternatives and hence more elastic demands for hardcopy mail. Fève et al.
show that the average price elasticity during the demographic transition can remain low, as
mail demand becomes relatively concentrated in customers with less elastic demands (due to
lack of interest in or access to electronic alternatives). Using simulated data, they show that
routine time series econometric techniques can produce reasonable own price elasticities,
though measuring e-substitution can be difficult due to relatively poor proxy measures.

Discrete Choice Model of Cigno, Pearsall, and Patel
Cigno, Patel, and Pearsall (CPP) 49 depart radically from the time series approaches of the USPS
baseline models and the other CRRI time series models. The core of the CPP paper’s critique of
the USPS models is a claim that the exclusion of cross-price terms is a fatal deficiency. However,
they acknowledge that the large number of cross-price effects and the high degree of
multicollinearity of postal price series make it difficult to reliably measure the effects using
traditional time series methods.

The CPP paper instead uses a discrete choice model based loosely on a model originally
presented by Berry, Levinsohn, and Pakes (BLP). 50 The BLP model is widely used in the empirical
industrial organization literature. However, the CPP paper departs significantly from the BLP
methodology, mainly in order to reduce the computational complexity of the method to a level
that allows the estimator to be implemented in a Lotus 1-2-3 workbook. Additionally, the CPP
model has a number of questionable features, which we feel make it a work in progress.

First, the CPP model frames all mailing decisions in terms of consumers’ utility-maximizing
consumption choices, whereas much postal demand arises more directly from a variety of
business (production) decisions. While demands derived from consumption and production
theories can be generically similar—for example, in both cases, all prices in the relevant choice
set enter demand functions in theory—they are likely to result in distinct explanatory variables
for different products or product categories. This makes it relatively likely that the limited non-
price variables in the models omit important demand drivers.



48
   Frédérique Feve, Jean-Pierre Florens, Soterios Soteri, and Leticia Veruete-McKay, “Are Letter Price Elasticities
Higher than Econometricians Think?” Paper presented at the CRRI 20th Conference on Postal & Delivery
Economics, Brighton, England, 2012.
49
   Margaret M. Cigno, Elena S. Patel, and Edward S. Pearsall, “Estimates of U.S. Postal Price Elasticities of Demand
Derived from a Random-Coefficients Discrete-Choice Normal Model.” Paper presented at the CRRI 31st Annual
Eastern Conference. (Advanced Workshop in Regulation and Competition), Shawnee, Pennsylvania, May 17, 2012,
and the 20th Conference on Postal & Delivery Economics, Brighton, England, June 1, 2012.
http://www.prc.gov/prc-docs/library/refdesk/techpapers/CignoPatelPearsall%20Paper_2761.pdf
50
   Steven Berry, James Levinsohn, and Ariel Pakes, “Automobile Prices in Market Equilibrium.” Econometrica, Vol.
63(4), July 1995. See also Aviv Nevo, “A Practitioner’s Guide to Estimation of Random-Coefficients Logit Models of
Demand.” Journal of Economics & Management Strategy, Vol. 9(4), Winter 2000.


                                                                                                                  52
Second, the CPP results show some implausible cross-elasticities. We suspect these are artifacts
of failing to apply reasonable a priori knowledge regarding market segmentation within the
array of postal products under study. Likewise, findings of large (negative) own price elasticities
for market dominant products that receive preferential rates are highly suspect.

Third, the CPP paper makes a number of unjustified and implausible assumptions, particularly
with respect to specification of the “outside good” in the model (representing choices of
nonpostal products). The outside good is assumed to have static characteristics and prices
(both normalized to zero for computational convenience, which is particularly troubling as
electronic alternatives to postal services are marked by rapidly falling prices and improving
quality. Since the CPP paper lacks needed quantity information for its outside good, it computes
the outside good’s market share (needed to estimate model parameters) from the assumption
that the total postal plus outside good market size is fixed over the sample period. This
characterizes the Postal Service as enjoying a growing share of a fixed market until the volume
peak in the 2000s rather than, as seems more likely, a declining share of a rapidly growing
communications market. This could lead to inappropriate estimates of coefficients on price
variables in the share equations, which subsequently feed into the CPP paper’s elasticity
estimates.

As a practical matter, the CPP model’s Lotus 1-2-3 implementation is extremely cumbersome
and not well suited to exploratory analysis. It appears that basic model changes including
adding or removing variables, and altering the model time period, would require considerable
spreadsheet modification. We would strongly encourage researchers pursuing postal
applications of the BLP methodology to employ more standard econometric analysis software.




                                                                                                53
RARC-WP-13-008                                                                        Analysis of Postal Price Elasticities




                                    U.S. Postal Service Office of Inspector General
                                                 1735 N. Lynn Street
                                                 Arlington, VA 22209

                                                  Telephone: 703-248-2100
                                                      www.uspsoig.gov

                                     For media inquiries, contact Agapi Doulaveris
                                             Telephone: 703-248-2286
                                              adoulaveris@uspsoig.gov



U.S. Postal Service Office of Inspector General                                                              May 1, 2013
